1a
UNITED STATES
Appellee
v.
Nicholas S. BAAS, Corporal, United States
Marine Corps
Appellant
United States Court of Appeals for the Armed Forces
March 17, 2020, Argued;
May 29, 2020, Decided
No. 19-0377
Reporter
80 M.J. 114 *; 2020 CAAF LEXIS 297 **
Prior History: [**1] Crim. App. No. 201700318.
Military Judges: Forrest W. Hoover and Peter S.
Rubin.
United States v. Baas, 2019 CCA LEXIS 173 (NM.C.C.A., Apr. 15, 2019)
Counsel: For Appellant: Lieutenant
Rosinski, JAGC, USN (argued).

Daniel

E.

For Appellee: Lieutenant Joshua C. Fiveson, JAGC,
USN (argued); Lieutenant Colonel Nicholas L.
Gannon, USMC, Lieutenant Commander Timothy C.
Ceder, JAGC, USN, and Brian K. Keller, Esq. (on
brief); Colonel Mark K. Jamison, USMC.

2a
Judges: Judge RYAN delivered the opinion of the
Court, in which Chief Judge STUCKY and Judges
OHLSON, SPARKS, and MAGGS (except as to Part
II.B), joined. Judge MAGGS filed a separate opinion,
concurring in part and concurring in the judgment.
Opinion by: RYAN
Opinion
[*116] Judge RYAN delivered the opinion of the
Court.
A general court-martial convicted Appellant, contrary
to his pleas, of two specifications of conspiracy,1 one
specification of false official statement, two
specifications of raping a child, two specifications of
producing child pornography with intent to distribute,
and two specifications of distribution of child
pornography in violation of Articles 81, 107, 120b, and
134, Uniform Code of Military Justice (UCMJ), 10
U.S.C. §§ 881, 907, 920b, 934 (2012). In accordance
with his pleas, he was acquitted of one specification of
raping a child, one specification of producing [**2]
child pornography, and one specification of
distributing child pornography. Appellant was
sentenced to forfeiture of all pay and allowances,
reduction to grade E-1, confinement for fifteen years,
and a dishonorable discharge. The convening

1 Following

findings, the military judge consolidated the two
conspiracy specifications into one. United States v. Baas, No.
NMCCA 201700318, 2019 CCA LEXIS 173, at *1 n.1, 2019 WL
1601912, at *1 n.1 (N-M. Ct. Crim. App. Apr. 15, 2019)
(unpublished).

3a
authority approved the sentence as adjudged and the
United States Navy-Marine Corps Court of Criminal
Appeals (NMCCA) affirmed the findings and
sentence. Baas, 2019 CCA LEXIS 173, at *55, 2019
WL 1601912, at *19.
We granted review of two issues:
I. Did admission of an allegedly positive Diatherix
Laboratories test for gonorrhea, without
testimony at trial of any witness from Diatherix,2
violate the Sixth Amendment Confrontation
Clause?
II. Did the lower court abuse its discretion in
admitting an alleged positive Diatherix test result
for gonorrhea in a child’s rectal swab—where
Diatherix failed to follow its own procedures and
the result was of near zero probative value?
The first question we answer in the negative. As to the
second question, even assuming error, we find no
prejudice. We therefore affirm the lower court.
I. Background
The charges arose out of Appellant’s abuse of his son,
GB. In June 2016, Appellant’s girlfriend, KM,
searched through his cellphone for evidence of
infidelity and discovered messages in the Skype

2 Although

the executive vice president of Diatherix was a
witness at an Article 39(a), UCMJ, 10 U.S.C. § 839(a) (2012),
session, neither he nor any Diatherix employee who
administered the test at issue testified at trial.

4a
application [**3] between him and “Hailey Burtnett”3
from [*117] August 2015 to June 2016. In these
messages—exchanged simultaneously but with a oneway video in which Hailey could view Appellant
though he could not view her—Hailey directed
Appellant to perform sexual acts on his infant son.
The messages indicated that Appellant complied.
KM gave Appellant’s phone to his chain of command,
who then alerted the Naval Criminal Investigative
Service (NCIS). NCIS apprehended and interrogated
Appellant. During his NCIS interview, Appellant
admitted performing the acts Hailey directed him to
do but insisted that the object of those acts was a
green teddy bear belonging to his son, and not GB
himself. When the NCIS agents expressed disbelief at
this defense given the obscene specifics and the
inability to commit the acts described with a teddy
bear, Appellant explained that all the graphic
descriptions and directions were the stuff of
imagination. Then, attempting to demonstrate his
innocence, Appellant admitted that he had chlamydia
and gonorrhea, and insisted that should NCIS test GB
for the infections, the tests would come back negative.

3 Hailey

Burtnett was never located or identified. While
Appellant claimed to have known her from his high school in
Alabama, he never saw her since the Skype feed was one-way,
and law enforcement was unable to find any record of such a
person at the school or in that town. “Hailey’s” internet protocol
(IP) address did not originate from Florida—where she told
Appellant she lived—but resolved back to Spain, France, Iceland,
and Germany. Though we do not know who Appellant skyped
with, or if it was even a woman, for purposes of the opinion we
will use the name and sex of the person Appellant believed he
was communicating with.

5a
The day after Appellant’s NCIS interview, GB’s
mother, who had separated from [**4] Appellant in
2015, took the child to Coastal Children’s Clinic for an
appointment with Dr. Lisa Kafer, who performed a
physical examination on GB. Finding no visible signs
of abuse, Dr. Kafer obtained a rectal swab of GB and
ordered a test from Diatherix—a diagnostic service—
to check for chlamydia and gonorrhea. Diatherix ran
a nucleic acid amplification test (NAAT), which came
back positive for gonorrhea. Dr. Kafer then referred
GB to another medical center for a confirmatory
culture test and treatment. That facility ran the
wrong test, contaminated the sample by refrigerating
it, and treated GB with an antibiotic, which foreclosed
the possibility of further confirmatory testing.
Before trial, defense counsel moved to exclude the
Diatherix test result under both the Confrontation
Clause and Daubert v. Merrell Dow Pharms., Inc., 509
U.S. 579, 113 S. Ct. 2786, 125 L. Ed. 2d 469 (1993).
The military judge admitted the test result, finding no
Confrontation Clause violation because the result was
not testimonial: It was “not made with an eye toward
litigation” but was part of GB’s medical treatment.
As to the Daubert challenge, both parties submitted
voluminous documentary evidence, and the military
judge heard expert testimony from each party in a
lengthy Article 39(a), UCMJ, hearing. The defense
called Dr. Hammerschlag, [**5] a pediatrician and
certified expert in the field of sexually transmitted
infection (STI) diagnostics, who testified that the
particular NAAT Diatherix used had not been
reviewed by the Food and Drug Administration
(FDA), and the Centers for Disease Control and

6a
Prevention (CDC) does not recommend the use of
NAATs generally on prepubescent boys because the
low prevalence of gonorrhea in that population creates
a high probability of false positives. This probability,
the expert claimed, made it unlikely that GB’s test
result was a true positive.
The Government proffered two experts: Drs. Stalons
and Hobbs. Dr. Stalons, Diatherix’s executive vice
president and clinical director, explained the company
is accredited by the American College of Pathologists
(CAP) and certified for testing bacteria like gonorrhea.
He added that portions of the NAAT Diatherix uses
are proprietary, which meant that the test had not
been reviewed by the FDA. Nevertheless, the test has
a 99% accuracy rate when testing blind samples as
part of its accreditation and a 100% accuracy rate for
the particular gonorrhea tested in this case. Dr.
Hobbs, an expert in microbiology, agreed with the
defense expert that the low [**6] prevalence of
gonorrhea among boys increased the likelihood of
false positives, but disagreed with her on what the
likelihood of a false positive was. Dr. Hobbs also
testified that a culture is typically preferred to an
NAAT in cases of suspected child abuse. She
nevertheless determined that because Diatherix’s
NAAT is highly accurate, precise, sensitive, and
specific,4 the test produces valid results.

4 A test is accurate if it can produce “a true indication of the
nature and quantity of the substance or object being measured.”
S. W. Martin, The Evaluation of Tests, 41 Can. J. Comp. Med. 19,
23 (1977). A test is precise if it is able “to give consistent results
in repeated determinations in the same sample or [subject].” Id.
A test’s sensitivity refers to its ability “to correctly identify those

7a
[*118] Based on the expert testimony and the parties’
submissions, the military judge issued a written
ruling applying the Daubert factors to conclude that
the test was “a reliable test based upon scientific
principles.” The military judge found that the defense
expert’s concern that the test had a low positive
predictive value when used for samples from
prepubescent boys did not “undermine the scientific
principles upon which the test is based.”5 He cited
United States v. Sanchez, 65 M.J. 145, 151 (C.A.A.F.
2007), for the proposition that “existence of an error
rate or disagreement over what that rate may be does
not render the test inadmissible,” and denied defense
counsel’s motion to exclude the test result.
At trial, the Government introduced Appellant’s
statements [**7] to NCIS, the testimony of several
expert and lay witnesses, both Appellant’s and GB’s
positive test results for gonorrhea, and Appellant’s
Skype conversations with Hailey.

patients with the disease,” whereas its specificity refers to its
ability “to correctly identify those patients without the disease.”
Abdul Ghaaliq Lalkhen & Anthony McCluskey, Clinical Tests:
Sensitivity and Specificity, 8 Continuing Educ. in Anaesthesia,
Critical Care & Pain 221, 221 (2008) (emphasis added).
Diatherix’s test accuracy was 94.6%, its precision 99.7%, its
sensitivity comparable to other NAATs, and its specificity
perfect.
5 Positive

predictive value (PPV) refers to the likelihood that the
specific test result at issue is a true positive. See Lalkhen &
McCluskey, supra note 4, at 221 (“The PPV of a test is a
proportion that is useful to clinicians since it answers the
question: ‘How likely is it that this patient has the disease given
that the test result is positive?’ “).

8a
The conversations reveal a course of conduct that
involved Hailey orchestrating and directing sexual
conduct for Appellant to perform upon himself, see,
e.g., Joint Appendix at 911-15, United States v. Baas,
No. 19-0377 (C.A.A.F. Dec. 27, 2020) (penetrating his
own anus with a cucumber and a bottle of lubricant on
August 22, 2015), and giving Appellant more insidious
instructions to perform sexual acts on his son. While
Appellant was sometimes hesitant to carry out
Hailey’s instructions, he participated in her “game.”
For example, in a conversation on March 29, 2016,
accompanied by a one-way live-streamed video call,
Hailey directed Appellant to sodomize GB:
[Hailey:] lick his balls
his little balls
put him all in your mouth
balls and dick
....
lick his butt a little
yes
yes
lay on you[r] back lay hi[m] on u
so u can lick his ass
and suck his dick a little
yes
....
use yo[ur] finge[r a lit]tle
does he like that

9a
show me
closer
....
[put] lotion on yo[ur] dick
rub h[i]s dick too
with the l[o]tion
yes
on his ass a little
he li[k]es [**8] it
....
slide your finge[r in] a [lit]tle
....
use the tip of yo[ur] dick a little
just a little
u got him hard
....
[App.:] Oh my god lol
....
i kinda came
[Hailey:] I know
But not al[l the] way
The conduct continued for nearly ten more minutes,
with Hailey directing Appellant to [*119] put lotion on
his son and rub himself in various ways against his
son, and “go in him a little.” These messages and the

10a
accompanying video stream lasted over forty-five
minutes, including a brief interruption where the call
ended and was restarted.
Appellant and Hailey engaged in another
conversation spanning from late the night of May 2,
2016, to the early hours of May 3, 2016:
[May 2, 2016]
[Hailey:] u in a dirty mood tonight
after u eat
[App.:] Lol ain’t I always?
[Hailey:] yes
[App.:] Tell me what you’re thinking
[Hailey:] a little of [GB] then u cumming so good
[App.:] Tell me all about it babe
....
[May 3, 2016; approximately three hours later]
[Hailey:] do u have the lotion
[App.:] Yeah
[Hailey:] get in your shorts
....
take off the diaper
kiss down him
down his chest
more
he loves it
his dick a little

11a
....
show all of him
get him very hard
show how hard he is
just the tip of it
After eleven minutes, the call was interrupted [**9]
when Appellant’s fellow marine came to his
apartment and Appellant had to put GB to bed. Hailey
repeatedly asked Appellant to wake GB, but
Appellant declined:
[Hailey:] take [GB] with u
to your room
ok
[App.:] [GB] is asleep now
[Hailey:] I know put him in yo[ur] room
....
check on him then move him
[App.:] He is asleep but if I pick him up
he will wake up
[Hailey:] move him slowly
try to ok
[App.:] No woman I’m not moving my sleeping
child.
On May 8, 2016, Hailey texted Appellant to remind
him that they “never did get to finish up from the
other night.” Appellant replied that they would have
to proceed without GB because he was sleeping. Once

12a
again Hailey requested that Appellant wake GB, but
Appellant declined. The two exchanged similar texts
the following day, with Hailey explaining she had just
wanted Appellant to put his “mouth on him a little but
don’t wake him up,” and Appellant responding that
GB “sleeps on his belly and if I try to roll him over he
will wake.”
But on May 15, 2016, GB was awake when Hailey
texted Appellant. The two then began a one-way video
call that lasted around thirty minutes, with a brief
interruption when the call stopped and was restarted.
During this call, Hailey [**10] again directed
Appellant to sexually abuse his son. For example:
[Hailey:] try to get [your penis] in his mouth some
tel[l] him to open his mouth up wider
say open it big
put him on your chest
so you can suck him a little
....
rub his dick
then use your finger in his ass very tlly
slowly
suck him w[h]ile u do it
go slowly
not to[o] much
use yo[ur] mouth on him
....
put lotion on yo[ur ]dick

13a
yes
[p]ut his ass on yo[ur] dick
yes
go back and forth
[*120] yes
like t[ha]t
....
hold him on u
[App.:] Have to hurry
[Hailey:] tight
....
[App.:] Have to go
The conversation and video stream then ended
abruptly. Judging from the chat history, this was the
last time Appellant sexually abused GB at Hailey’s
direction.
On June 6, Appellant stated that he would no longer
carry out Hailey’s instructions on GB:
[Hailey:] do u want to cum . . . today
....
and then with [GB] 2mrow
[App.:] No [GB] for a few weeks
[Hailey:] come on
just one more time
[App.:] No when I say something it’s for a reason

14a
Appellant’s defense focused on two points: (1) that the
Diatherix test was grossly unreliable and therefore
GB’s test result was a false positive, and (2) that even
if Appellant carried out the acts described in these
chats, he did so not [**11] to GB, but to GB’s green
teddy bear.
At closing, the parties focused mainly on the second
point. The defense offered varying theories, each of
which trial counsel disputed, to demonstrate that
Appellant had not abused GB: the conversations were
simply sexual fantasies, the acts were performed not
on GB but on a teddy bear, the whole thing was a set
up perpetrated by Hailey. Defense counsel also
dedicated a large share of his closing to the Diatherix
test result, emphasizing its unreliable nature. Trial
counsel asserted that the test was reliable and that
the positive result “corroborates the overwhelming
digital forensic evidence that the government has
presented in this case.” But he clarified that GB’s test
result was neither dispositive of the gonorrhea
diagnosis, nor necessary to establish Appellant’s guilt
on the rape charges: “This test is nothing more than a
screening test. It’s some evidence—some additional
evidence for you to consider. And the case does not rise
or fall on gonorrhea.”
The members found Appellant guilty on the charges
related to the conduct on March 29, 2016, and May 15,
2016, but found him not guilty of the specifications
related to the conduct on May 2, 2016. [**12]
The NMCCA affirmed the lower court, ruling that the
Diatherix lab report was not testimonial and that
Appellant therefore was not denied his Sixth

15a
Amendment right to confrontation. Baas, 2019 CCA
LEXIS 173, at *34, 2019 WL 1601912, at *10-11. The
NMCCA also determined that the military judge
correctly applied the Daubert factors in deciding
whether to admit the Diatherix test and the related
expert testimony. 2019 CCA LEXIS 173, at *19, 2019
WL 1601912, at *5-7.
II. Discussion
A. The Confrontation Clause
Appellant argues that the Diatherix test result was
testimonial because (1) Dr. Kafer, the requesting
physician, acted on behalf of law enforcement to
obtain the test since social services—a part of law
enforcement—had referred GB’s mother to her for
testing; and (2) Diatherix must have known the
testing of a rectal swab from a one-year-old for
gonorrhea was part of a criminal investigation and
was therefore intended for use at trial. We disagree.
“In all criminal prosecutions, the accused shall enjoy
the right . . . to be confronted with the witnesses
against him.” U.S. Const. amend. VI. This clause
permits the admission of “testimonial statements of a
witness absent from trial . . . only where the declarant
is unavailable, and . . . the defendant has had a prior
opportunity
to
cross-examine.” Crawford v.
Washington, 541 U.S. 36, 59, 124 S. Ct. 1354, 158 L.
Ed. 2d 177 (2004); see United States v. Sweeney, 70
M.J. 296, 301 (C.A.A.F. 2011). This Court reviews de
novo whether statements are [**13] testimonial for

16a
purposes of the Sixth Amendment. United States v.
Squire, 72 M.J. 285, 288 (C.A.A.F. 2013).
[*121] In determining whether a statement is
testimonial, this Court asks “whether it would ‘be
reasonably foreseeable to an objective person that the
purpose of any individual statement . . . is
evidentiary,’ considering the formality of the
statement as well as the knowledge of the declarant.”
United States v. Katso, 74 M.J. 273, 279 (C.A.A.F.
2015) (quoting United States v. Tearman, 72 M.J. 54,
58 (C.A.A.F. 2013)) (collecting cases). “In the end, the
question is whether, in light of all the circumstances,
viewed objectively, the ‘primary purpose’ of the
[statement] was to ‘creat[e] an out-of-court substitute
for trial testimony.’ “ Ohio v. Clark, 576 U.S. 237, 135
S. Ct. 2173, 2180, 192 L. Ed. 2d 306 (2015) (second
alteration in original) (quoting Michigan v. Bryant,
562 U.S. 344, 358, 131 S. Ct. 1143, 179 L. Ed. 2d 93
(2011)). The “statement” at issue is the lab report from
Diatherix, and the declarant therefore is Diatherix
and its employees who conducted the test. Thus, our
focus in this inquiry here is on the purpose of the
statement in the Diatherix test result, and not on the
purpose others—such as the treating physician—may
have had in facilitating that statement.6 See Sweeney,
6 We

recognize that we may consider the purpose non-declarants
had in facilitating a statement when the declarant knows of that
purpose. After all, “[f]ine distinctions based on the impetus
behind the testing and the knowledge of those conducting
laboratory tests” can be relevant in determining whether the
declarant’s purpose in making a statement is evidentiary. United
States v. Blazier (Blazier I), 68 M.J. 439, 442 (C.A.A.F. 2010)
(quoted in Sweeney, 70 M.J. at 302). The declarant had no such
knowledge in this case.

17a
70 M.J. at 302 (“[T]he focus has to be on the purpose
of the statements in the drug testing report itself,
rather than the initial purpose for the urine being
collected and sent to the laboratory for testing.”).
Here, the totality of the circumstances shows
that [**14] the primary purpose of the test was
diagnostic and not evidentiary. Although it is true
that law enforcement’s involvement in the process
could change the analysis, see United States v.
Rankin, 64 M.J. 348, 352 (C.A.A.F. 2007), there was
no such involvement here. While Appellant seeks to
cast Dr. Kafer as an agent of law enforcement, the
evidence is to the contrary. Dr. Kafer assessed GB for
child sexual abuse, but the sample was submitted to
Diatherix to assess whether he had contracted a
sexually transmitted infection in order to treat it.
Tellingly, when Dr. Kafer received the lab results back
from Diatherix on June 18, she arranged for a
confirmatory test and treatment.
Although NCIS received the test results shortly after
the test was run, SA Morgan testified at trial that
NCIS had no interaction with Dr. Kafer at all.7 As in
Squire, while Dr. Kafer was aware of the possible law
enforcement related consequences of the exam and
test results, she was acting as a medical provider, not
as an arm of law enforcement. 72 M.J. at 290-91
(doctor’s “medical specialty and experience, his status
7 There

is some dispute as to whether GB’s mother brought him
to Dr. Kafer at social services’ direction. Even if social services
had directed GB’s mother to take him to Dr. Kafer, the doctor’s
actions—discussed below—show that her primary concern was
GB’s medical treatment, and not whatever interest may have
motivated social services.

18a
as a mandatory reporter, and his completion of state
mandated forms while conducting the examination”
did not result in de facto law enforcement
involvement).
Thus,
any
alleged [**15]
law
enforcement
involvement in directing GB’s mother to Dr. Kafer had
no effect on her primary purpose in ordering the test.
Rather, the test was ordered from a private lab by a
private physician who, upon receiving the results,
prescribed a confirmatory test and treatment by
another private facility. This is a far cry from the facts
in United States v. Gardinier, 65 M.J. 60, 66 (C.A.A.F.
2007), where we found the victim’s statements to a
sexual assault nurse examiner (SANE) testimonial
because the SANE examined the victim several days
after her initial medical examination and the sheriff’s
office had arranged and paid for the SANE’s
examination.
Further, in an apparent attempt to demonstrate that
NCIS had not followed the proper procedure to get a
trustworthy test result for GB, during its crossexamination of the NCIS agent, defense counsel made
much of [*122] the fact that Dr. Kafer’s examination
was medical and not forensic:
[DC:] There was no forensic examination?
[NCIS:] There was an examination by a licensed
medical practitioner.
[DC:] Right. That would be a medical examination,
correct?
[NCIS:] That was an examination. Yes.

19a
In light of the record, defense counsel’s
characterization of Dr. Kafer’s examination as
medical—not forensic—seems apt.
[**16] Appellant also argues that because the
gonorrhea swab came from an infant, the people who
ordered and administered the test must have been
aware that the results would likely be used in a
subsequent criminal prosecution and their primary
purpose was therefore to create an “out-of-court
substitute for trial testimony.” Clark, 135 S. Ct. at
2180. First, Diatherix expressly refuted that assertion
through the Article 39(a), UCMJ, testimony of Dr.
Stalons. Second, even if Diatherix knew that the test
result might be used in court, “that knowledge alone
does not transform what would otherwise be a
statement for the purpose of medical treatment into a
testimonial statement,” Squire, 72 M.J. at 290, one
created as an “out-of-court substitute for trial
testimony.” Clark, 135 S. Ct. at 2180.
Finally, as the CCA noted, the test result itself lacks
any indicia of the formality or solemnity characteristic
of testimonial statements:
[T]here is no sworn attestation on the Diatherix
lab report. Nor is there a statement on the lab
report indicating the tests results were intended
for evidentiary purposes. In fact, the Diatherix lab
report contains no signatures, was not
accompanied by any chain of custody
documentation, and merely consists of a single
page identifying the patient’s name, the “ordering
physician,” the date the specimen was collected,
received, and reported, the organisms tested for,
and an “X” in either a column labeled

20a
“DETECTED” or “NOT DETECTED,” for each
organism.
Baas, 2019 CCA LEXIS 173, at *33, 2019 WL
1601912, at *11; cf. Tearman, 72 M.J. at 61 (internal
documents “lack[ed] any indicia of formality or
solemnity that, if present, would suggest an
evidentiary purpose”); see contra Melendez-Diaz v.
Massachusetts, 557 U.S. 305, 307, 129 S. Ct. 2527, 174
L. Ed. 2d 314 (2009) (affidavit-like “certificates of
analysis” [**17] created to serve as evidence at trial
were testimonial). This lack of formality is likely due,
in part, to the fact that Diatherix does not typically do
forensic testing and did not know the test would be
used in court.
The surrounding circumstances indicate that
Diatherix’s primary purpose in testing the sample was
diagnostic and not evidentiary. Therefore, the
Diatherix test result was not testimonial and its
admission did not violate Appellant’s Sixth
Amendment right to confrontation.
B. Daubert
Appellant argues that the military judge abused his
discretion in admitting the Diatherix test result,
based on an erroneous application of the factors in
Daubert, 509 U.S. at 593-94. We do not reach the
question whether the military judge misapplied these
factors because, even assuming that he did, Appellant
was not prejudiced by the test’s admission.
The parties agree that the claimed Daubert error is
nonconstitutional in nature. Under Article 59(a),
UCMJ, the “finding or sentence of a court-martial may

21a
not be held incorrect on the ground of an error of law
unless the error materially prejudices the substantial
rights of the accused.” 10 U.S.C. § 859(a) (2012). “For
nonconstitutional evidentiary errors, the test for
prejudice ‘is whether the error [**18] had a
substantial influence on the findings.’ “ United States
v. Kohlbek, 78 M.J. 326, 334 (C.A.A.F. 2019) (quoting
United States v. Fetrow, 76 M.J. 181, 187 (C.A.A.F.
2017)). The Government bears the burden of
demonstrating that the admitted evidence was not
prejudicial. United States v. Flesher, 73 M.J. 303, 318
(C.A.A.F. 2014). “In conducting the prejudice analysis,
this Court weighs: (1) the strength of the
Government’s case, (2) the strength of the defense
case, (3) the materiality of the evidence in question,
and (4) the quality of the evidence in question.”
Kohlbek, 78 M.J. at 334 (citations omitted) (internal
quotation marks omitted). [*123] Based on the entire
record, United States v. Gunkle, 55 M.J. 26, 30
(C.A.A.F. 2001), we conclude that the admission of the
Diatherix test result did not have a “substantial
influence on the findings.”
1. The Strength of the Government’s Case
The Government’s case was strong. Hailey’s
instructions to Appellant during the Skype chat
served for members as a contemporaneous narration
of the live-streamed Skype video she viewed. See
supra pp. 6-9. Nor did Appellant claim, in his
interviews with NCIS or otherwise, that the messages
were either altered or otherwise not representative of
his conversations with Hailey. Appellant and Hailey
clearly coordinated the Skype chats involving GB at
times he would have access to GB, and on several

22a
occasions Appellant explained to her that he could not
include GB because the [**19] child was with his
mother. The lurid and specific directions, the
descriptive details, the remarks regarding the effects
of the actions upon Appellant’s and GB’s anatomy,
Appellant’s expression of sexual release, and the
length of time over which the admitted chats occurred
alone provided sufficient evidence for the members to
find Appellant guilty.
Further, Appellant himself admitted to NCIS that he
performed the actions described in the messages,
albeit that he did so not on his son, but on GB’s teddy
bear—whom he claimed the two referred to using GB’s
name, though everyone else knew the bear as “Scout.”
Appellant gave this same implausible explanation to
social services and his roommate’s boyfriend. But the
Government’s witnesses and admitted evidence were
strong proof that the victim of Appellant’s actions was
GB and not his teddy bear.
For example, Appellant sent pictures of GB in
conjunction with the exchanges to show Hailey that
GB would be present for a video call. When Hailey
repeatedly demanded that Appellant wake GB to
perform sexual acts on him, Appellant responded: “No
woman I’m not moving my sleeping child.” Days later,
when Hailey requested that Appellant wake GB “to
finish [**20] up from the other night,” Appellant
declined because GB “will be mad because he is
hungry.” Taking these statements at face value, it is
doubtful that Appellant made them out of concern for
a teddy bear’s sleep, hunger, or anger. In addition,
there are several points during the calls when Hailey
described GB’s physical reactions to Appellant’s

23a
abuse, and instructed Appellant to adjust the camera
so that she could see GB better and not miss Appellant
carrying out her direction, for example: “move the
cam[era] over so I can see”; “move the cam[era] down
some on his hole”; “lower[ ]the cam[era] a [lit]tle . . .
show between his legs.”
Nor could the Government find any physical evidence
to corroborate Appellant’s explanation. NCIS sent the
toy to the U.S. Army Criminal Investigative
Laboratory (USACIL) for testing because some of the
messages indicated that Appellant had ejaculated on
his son’s stomach. Forensic testing revealed no semen
on the teddy bear, and no evidence that it had been
washed. Moreover, as the NCIS agent noted during
Appellant’s interview: “Teddy bear’s [sic] mouths can’t
fit a penis or a ball or a testicle, okay? Teddy bear’s
[sic] don’t have penises that you can put [**21] your
mouth on, or a penis that you can stroke, or, you know,
they don’t have any of that.”
Finally, one Government witness testified that
Appellant was “frantic” when he learned his phone
was in others’ hands. Appellant’s roommate testified
that Appellant went to his girlfriend’s house and
“bang[ed] on the door asking where his phone was. . .
. The tone of his voice sounded very frantic,
concerned.” The members could very well have
attributed this reaction to a concern that the missing
phone contained evidence of wrongdoing.
In all, the comprehensive digital forensic evidence, the
testimony of the Government’s witnesses, and
Appellant’s own statements to NCIS and others—
which together rendered Appellant’s “teddy bear”

24a
explanation improbable—made the Government’s
case strong even without GB’s test result.
2. The Strength of the Defense Case
Conversely, the Appellant’s case at trial was weak.
His principal defense was that he had performed the
described acts on GB’s green teddy bear and that any
reference to [*124] GB in the messages was in fact to
that teddy bear—a bear whose actual name was
Scout, the name emblazoned on its chest. As discussed
above, supra pp. 16-17, this defense was improbable.
Appellant’s [**22]
explanation
of
Hailey’s
instructions strains credulity: descriptions of the
victim’s concerns of sleep and hunger, together with a
lack of any physical evidence that a teddy bear was
the object of Hailey’s instructions, belie his defense.
As a result, the defense’s case was weak. Cf. United
States v. Hall, 66 M.J. 53, 55 (C.A.A.F. 2008)
(describing the appellant’s defense as weak because
the alternative theories advanced at trial were
implausible).
3. The Materiality and Quality of the Evidence in
Question
“When assessing the materiality and quality of the
evidence, this Court considers the particular factual
circumstances of each case.” United States v.
Washington,
M.J.
(8) (C.A.A.F. 2020) (listing
considerations this Court has used in evaluating these
factors). On the one hand, the Diatherix test result,
offered in conjunction with Appellant’s positive test
result for gonorrhea, was physical evidence
corroborating the rape specifications. “Standing alone,

25a
such [evidence] might well have been determinative.”
Hall, 66 M.J. at 56.
The vast majority of the Government’s case-in-chief,
though, focused not on gonorrhea, but on Appellant’s
statements to NCIS and others regarding the green
teddy bear defense, the USACIL tests for semen on
the green teddy bear, and the digital forensic analysis
that yielded the texts [**23] that revealed the conduct
Appellant engaged in at Hailey’s direction. Further,
the materiality of the Diatherix test was significantly
diminished at trial. The defense expert testified that
Diatherix’s failure to follow its own laboratory
procedures, the clinic’s inability to confirm the
positive result with a culture and properly preserve
the specimen, and the unreliable nature of the
Diatherix test when used for samples from
prepubescent boys made this “one of the worst
managed cases that [she had] dealt with.” She added
that because of this low prevalence of gonorrhea
among prepubescent boys, the test’s “positive
predictive value was essentially zero,” meaning that
“the test was useless in [GB’s] situation.” The
members sought clarification on this point through
two different questions to the defense expert. The first
asked “At what prevalence level is the [positive
predictive value] considered too low for the results of
a test on an individual to be considered reliable?” In
response, Dr. Hammerschlag opined, inter alia, that
the NAAT “in this situation—especially since it’s not
FDA cleared, and we have no idea about its
performance—should not be used.” Another member
then asked: [**24] “Is it your opinion that the results
of a NAAT for rectal swabs in young males are invalid
due to a lack of data when used for identification of

26a
STIs?” Dr. Hammerschlag answered: “I wouldn’t
exactly use the word ‘invalid.’ I think it’s more
interpreted with caution. That they more likely
frequently may be invalid; and that’s why we have to
do confirmation.” Both members responded in the
affirmative when the military judge asked whether
these responses answered their questions. Based on
these questions and answers, it is likely that the
defense’s attack on the reliability of the test
influenced the weight the members gave that piece of
evidence in their deliberations.8
The Government’s own expert, Dr. Hobbs, readily
agreed that the test sample was mismanaged, that the
test result was not reliable in children, that it “was
not appropriate to use this test without confirmatory
testing,” and, damning with faint praise only that she
“found a reasonable chance that the positive test in
this case might represent a true positive.” Dr. Hobbs’s
testimony on cross-examination revealed a host of
concerns she harbored as to the test result in this case.
First, Diatherix failed to follow its own
protocols [**25] when it accepted the rectal sample
without prior authorization, conducted a test on an
alleged sexual abuse victim, and utilized the test with
a child. Second, she was concerned that none of the
CDC guidelines were followed and appeared unaware
of the fact that the test had not been subject to peer
review. And, finally, she testified that the potential
[*125] for cross-reactivity—that the test could
identify other bacteria as gonorrhea—was “a
8 None

of this is to say that the military judge erred when he
admitted the test result, however. As noted above, supra p. 14,
we are agnostic on that issue.

27a
significant limitation for all NAATs,” especially for
rectal samples from children. Thus, the Government’s
own expert expressed serious reservations about the
reliability of the Diatherix test result.
Further, although the Government at closing argued
that the test result corroborated the digital forensic
evidence, it clearly also argued that the test result was
not dispositive of any issue—whether GB in fact had
gonorrhea, whether Appellant raped GB, or whether
Appellant transmitted gonorrhea to GB. In fact, the
Government emphasized that the test result itself was
only a presumptive positive—one that required
confirmatory testing, which did not take place. The
Government’s sparing use of the test result in its
opening and closing statements shows that [**26]
trial counsel understood that evidence was not as
probative of Appellant’s guilt as were the messages
with Hailey or his admission to NCIS. Cf. United
States v. Brooks, 26 M.J. 28, 29 (C.M.A. 1988) (finding
harmless error in part because the “trial counsel did
not refer to the objectionable evidence in his
argument”). We are persuaded that the nonconclusive test result, whose reliability was
questioned by expert witnesses for both parties, was
not qualitatively significant to the members’ findings
of guilt.
Appellant nonetheless suggests that the members’
mixed verdict shows the admission of the test result
was prejudicial. In his view, acquittal of the
specifications alleged as on or about May 2, 2016,
show that the members viewed the positive test
result—determined from a rectal sample—as the key
piece of evidence because this was the only

28a
conversation in which Appellant and Hailey did not
discuss anal penetration of GB by Appellant. We
disagree.
As an initial matter, the specification charged conduct
on or about May 2. No “conduct” occurred until May 3,
and neither counsel requested, nor did the military
judge offer, an instruction that as a matter of law “on
or about” could include May 3. More importantly, even
if the members considered [**27] the May 3 conduct,
that conduct was quantitatively and qualitatively
different than that on March 29 and May 15. First, the
portion of the Skype video call describing conduct on
May 3 lasted eleven minutes, as compared to forty-five
minutes on March 29, and twenty-five minutes on
May 15. Second, qualitatively, the conduct on May 3
did not clearly and unequivocally describe rape of a
child, while the conduct on March 29 and May 15 did.
The military judge instructed the members that in
order to find Appellant guilty of rape of a child, they
had to be convinced beyond a reasonable doubt that
Appellant “committed a sexual act upon GB.” “Sexual
act” was defined as “the penetration, however slight,
of the . . . anus or mouth by the penis,” or by any other
body part or object if done with the intent to “arouse
or gratify the sexual desire of any person.” (Emphasis
added). In order to find Appellant guilty of the
pornography specifications, the members had to find
that Appellant produced and distributed “a video of a
minor engaging in sexually explicit conduct.” The
military judge defined “sexually explicit conduct” as,
inter alia, “actual or simulated . . . sexual intercourse
or sodomy, including [**28] genital-genital, oralgenital, anal-genital, or oral-anal” sodomy.

29a
The trial counsel in his closing argued that “on May 2,
2016 [Appellant] suck[ed] his son’s penis.” Although
Hailey directed Appellant to “kiss down him . . . his
dick a little,” she did not clearly direct him in that
conversation to penetrate GB’s mouth with his
penis—in stark contrast to the clear directions on
March 29, 2016, and May 15, 2016, see supra pp. 6-7,
9, to sodomize his son both orally and anally.
Similarly, a close reading of that conversation could
lead the members to conclude that Appellant did not
produce or distribute child pornography, as defined in
the military judge’s instructions, because it did not
unequivocally describe penetration of any kind.
In sum, the members were directed to find Appellant
guilty only if they were convinced of guilt beyond a
reasonable doubt. For all the reasons stated above, we
disagree that the test result, obtained from GB’s rectal
sample, was the substantial reason the members
found Appellant guilty of the specifications related to
March 29 and May 15, and not guilty of the
specifications for conduct on [*126] May 2. We find it
far more likely that the members listened carefully to
the military [**29] judge’s instructions on these
charges, weighed the evidence, and applied the
definitions precisely in their deliberations.
Although the admission of the test result may have
had some influence on the findings, we are persuaded
that, based on the entire record, it did not have a
“substantial influence on the findings.” Kohlbek, 78
M.J. at 334. Even if the military judge erred in
admitting the test result, therefore, Appellant
suffered no prejudice.

30a
III. Conclusion
The decision of the United States Navy-Marine Corps
Court of Criminal Appeals is affirmed.
Concur by: MAGGS (In Part)
Concur
Judge MAGGS, concurring in part and concurring in
the judgment.
I concur with the Court’s opinion except part II.B., and
I concur in the Court’s judgment. Appellant asserts
before this Court, as he did before the United States
Navy-Marine Corps Court of Criminal Appeals
(NMCCA), that the military judge abused his
discretion in admitting a laboratory test showing that
Appellant’s infant son had gonorrhea. He contends
that the military judge either misapplied or failed to
consider six factors identified in Daubert v. Merrell
Dow Pharms., Inc., 509 U.S. 579, 593-95, 113 S. Ct.
2786, 125 L. Ed. 2d 469 (1993), for determining
whether expert testimony and scientific evidence are
sufficiently reliable and relevant to be admitted.1 The

1 We have described the Daubert factors in slightly different ways
in our cases. Compare United States v. Henning, 75 M.J. 187, 191
n.15 (C.A.A.F. 2016), with United States v. Sanchez, 65 M.J. 145,
149 (C.A.A.F. 2007). The Daubert factors challenged in this case
are: (1) whether the theory or technique can be (and has been)
tested; (2) whether the theory or technique has been subjected to
peer review and publication; (3) the known or potential error
rate; (4) the existence and maintenance of standards controlling
the technique’s operation; (5) the degree of acceptance within the
relevant scientific community; and (6) whether the probative
value of the evidence is substantially outweighed by the danger

31a
NMCCA disagreed, rejecting [**30] Appellant’s
contentions point by point. I agree with the NMCCA’s
analysis. I would affirm its judgment on the basis that
the evidence was properly admitted under Daubert,
rather than on the alternative grounds now adopted
by the Court.2
I. The Daubert Factors
The Supreme Court held in Daubert that a trial judge
has a “gatekeeping role,” requiring the judge to
of unfair prejudice, confusion of the issues, or misleading the
jury. See Daubert, 509 U.S. at 593-95 (discussing these subjects).
Military judges also must consider additional factors identified
in United States v. Houser, 36 M.J. 392 (C.M.A. 1993). In this
case, however, Appellant has generally limited his arguments to
the Daubert factors listed above.
2 The

Court assumes (without deciding) that the military judge
abused his discretion by admitting the evidence in question but
concludes that any error was harmless. I do not join the Court on
this point because if admission of the evidence was in error, I do
not believe that the Government could meet its burden of
showing that the error did not have a substantial influence on
the findings or the sentence. See United States v. Young, 55 M.J.
193, 197 (C.A.A.F. 2001) (considering whether erroneously
admitted evidence had a substantial influence on the findings
and sentence). The laboratory test was the only physical evidence
to corroborate the Government’s argument, based on the Skype
messages, that Appellant penetrated his infant son’s anus with
his penis. These messages consisted almost entirely of
instructions from “Hailey Burtnett” rather than descriptions of
what she saw or admissions by Appellant regarding what he did,
and were ambiguous regarding the specific issue of whether
Appellant penetrated his son’s anus with his penis on the dates
in question. In addition, the evidence that Appellant transmitted
gonorrhea to his infant son while raping him likely had a
substantial influence on Appellant’s sentence.

32a
“ensure that any and all scientific testimony or
evidence admitted is not only relevant, but reliable.”
Id. at 589, 597. The Supreme Court recognized that
“[m]any factors will bear on the inquiry” of whether
scientific evidence is reliable. Id. at 593. The Supreme
Court discussed several of these factors without
“presum[ing] to set out a definitive checklist or test.”
Id. When an appellant challenges admission of
scientific evidence, this Court first determines de novo
whether a military judge fulfilled this gatekeeping
function. United States v. Flesher, 73 M.J. 303, 311
(C.A.A.F. 2014). If “the Daubert framework is properly
followed, this court ‘will not overturn the ruling unless
it is manifestly [*127] erroneous.’ “ Henning, 75 M.J.
at 191 (quoting United States v. Griffin, 50 M.J. 278,
284 (C.A.A.F. 1999)).
In this case, the military judge conducted a Daubert
hearing and issued written findings of fact and
conclusions of law. In his ruling, the military [**31]
judge properly identified the relevant rules of
evidence, the Houser factors, and the Daubert factors,
and discussed the application of these rules and
factors to the facts of the case. Appellant argues that
the military judge did not specifically discuss all of the
Daubert factors, but the Supreme Court and this
Court have made clear that the inquiry is flexible, not
mandating consideration of each factor. Daubert, 509
U.S. at 594; Kumho Tire Co. v. Carmichael, 526 U.S.
137, 141, 119 S. Ct. 1167, 143 L. Ed. 2d 238 (1999);
Sanchez, 65 M.J. at 149. Accordingly, I agree with the
NMCCA that the military judge understood and
fulfilled his gatekeeping role.

33a
The issue then becomes whether the military judge’s
ruling was “manifestly erroneous.” Henning, 75 M.J.
at 191 (internal quotation marks omitted) (quoting
Griffin, 50 M.J. at 284). Appellant makes six
challenges to the military judge’s application of the
Daubert factors. Considering each of these challenges
in turn, I agree with the NMCCA’s conclusion that the
military judge’s rulings were not manifestly
erroneous.
Appellant’s first challenge concerns the Daubert factor
requiring trial judges to consider “whether the theory
or technique . . . can be (and has been) tested.” 509
U.S. at 593. The military judge concluded that this
factor favored admission because the laboratory test
had been confirmed by both a validation study
and [**32] by the results of blind samples sent to the
laboratory. Appellant does not dispute these facts but
contends that the laboratory test had never been
confirmed using child rectal samples. The military
judge recognized this distinction but reasoned that the
validation study and the results of the blind samples
confirmed “the general scientific principles behind the
test” even if the data were not exactly the same. The
NMCCA agreed with the military judge on this point,
and so do I. Discussing the Daubert factors in General
Electric Co. v. Joiner, 522 U.S. 136, 146, 118 S. Ct.
512, 139 L. Ed. 2d 508 (1997), the Supreme Court
recognized that experts “commonly extrapolate from
existing data” and that this practice is acceptable
unless “there is simply too great an analytical gap
between the data and the opinion proffered.”
Appellant has not convincingly explained why any gap
is too great in this case. His principal arguments are
only that one expert “noted rectal gonorrhea creates

34a
unique issues for gonorrhea tests” and that the
Centers for Disease Control and Prevention (CDC)
require confirmatory testing by culture for child rectal
samples.
The second Daubert factor challenged by Appellant is
“whether the theory or technique has been subjected
to peer review and publication.” 509 U.S. at
593 [**33] . The military judge concluded that this
factor favored admission. Even though the specific
test used in this case has not been subjected to peer
review, the military judge found that other tests using
similar science have been. Appellant, however, argues
that peer review of similar tests is not sufficient. He
asserts that “peer review must be specific to the
particular test used by the laboratory.” Like the
NMCCA, I disagree with Appellant. Such exactness is
not required. The Supreme Court has explained that
Daubert’s “list of factors was meant to be helpful, not
definitive” and that it “might not be surprising in a
particular case, for example, that a claim made by a
scientific witness has never been the subject of peer
review, for the particular application at issue may
never previously have interested any scientist.”
Kumho Tire Co., 526 U.S. at 151. Given that peer
review is not required at all, the military judge did not
commit manifest error in concluding that peer review
of tests that rely on similar science weighed in favor
of admission.
The third Daubert factor challenged by Appellant is
the “known or potential error rate.” 509 U.S. at 594.
As this factor was perhaps the most disputed at trial,
it is worth quoting the relevant portion of the military
judge’s written findings of fact and conclusions of law.

35a
The military judge assessed what three expert
witnesses said [*128] about the laboratory test, which
had been conducted by Diatherix Laboratories Inc.,
asserting:
[T]he error rate . . . is acceptable. Dr. Stalons
testified Diatherix [**34] had a 100% accuracy
rate in testing for gonorrhea. Dr. Hobbs testified
that Diatherix’s test produced scientifically valid
results. However, according to both Dr. Hobbs and
Dr. Hammerschlag, test results in the pediatric
population are considered less reliable. Dr.
Hammerschlag testified that the PPV for this test
as used was either 50% or lower, or 30%.3 The
court finds that the likelihood of a false positive
associated with the testing population does not
undermine the scientific principles upon which the
test is based. It was clear from Dr. Hobbs and
Hammerschlag that there is a potential for a false
positive. However, it was not clear what the actual
likelihood might be. Especially considering that
Dr. Hobbs did not attach any quantitative value to
the possibility and Dr. Hammerschlag’s
inconsistent testimony regarding the PPV.
In challenging the military judge’s conclusions,
Appellant asserts that to be reliable, a test “must at
least establish that a test result is at least more likely
than not to be correct.” He argues that in assessing
the reliability of the laboratory test, the military judge

3 PPV

stands for positive predictive value. In a footnote on this
point, the military judge explained: “A PPV of 30% means there
is a 30% chance the test is correct (i.e. 70% chance it is
incorrect).”

36a
erred because he relied on the accuracy of the test
rather than the positive predictive [**35] value (PPV)
of the test. He asserts that the test’s PPV was so low
in this case that the test did not meet the minimum
requirement for reliability. He explains that “Dr.
Hammerschlag testified that the ‘positive predictive
value’ was under 50%, meaning that any positive
result was no more accurate than a coin flip.”
Appellant’s argument ignores the military judge’s
contrary findings and conclusions. As the quotation
above shows, the military judge considered both the
test’s accuracy and its PPV. Although Appellant
draws on Dr. Hammerschlag’s testimony, the military
judge found this expert witness was inconsistent and
was contradicted by another expert witness. I assume
that a test with a known error rate greater than 50%
is not reliable. But the military judge did not find that
this test had a known error rate that was greater than
50%. Instead, the military judge found that the actual
rate of false positives “was not clear.” This finding of
fact was not clearly erroneous. And we have
repeatedly held that an unknown error rate does not
automatically make a scientific test inadmissible. See
Sanchez, 65 M.J. at 151 (“Nothing in the precedents of
the Supreme Court or this Court requires that a
military judge [**36] either exclude or admit expert
testimony because it is based in part on an
interpretation of facts for which there is no known
error rate or where experts in the field differ in
whether to give, and if so how much, weight to a
particular fact in deriving an opinion.”); United States
v. Youngberg, 43 M.J. 379, 386 (C.A.A.F. 1995)
(finding that military judge did not commit plain error
in admitting scientific evidence, despite the

37a
appellant’s complaint that there was no evidence of
error rates); United States v. Bush, 47 M.J. 305, 312
(C.A.A.F. 1997) (finding that military judge did not
abuse his discretion in admitting hair evidence even
where there was no evidence showing error rate for
hair-analysis procedure). Based on all the testimony
considered, the military judge’s conclusion that the
error rate was acceptable was not manifestly
erroneous.
The fourth Daubert factor challenged by Appellant is
“the existence and maintenance of standards
controlling the technique’s operation.” 509 U.S. at
594. The military judge cited this factor but did not
discuss it. Appellant now argues that the testing
laboratory failed to follow two of its own policies. One
policy was that users generally must obtain
preapproval before submitting anything other than an
“endocervical swab, vaginal swab, ThinPrep Pap
solution, urethral [**37] swab and urine” to be tested.
Under this policy, the physician who submitted the
rectal sample to the laboratory should have obtained
preapproval but he apparently did not. Another policy
was that the laboratory [*129] generally did not
conduct tests for the evaluation of suspected sexual
abuse.
The NMCCA rejected Appellant’s concerns about
these policies, asserting that the military judge was
not required to decide whether every Daubert factor
was satisfied. I agree with this point, especially
because it is not clear that Appellant challenged the
fourth Daubert factor before the military judge.
Appellant also has not satisfactorily explained why a
violation of the first policy would undermine the

38a
reliability of the laboratory test. Nor has Appellant
established a violation of the second policy. The test in
fact was done for diagnostic purposes, not for the
evaluation of suspected sexual abuse.
The fifth Daubert factor challenged by Appellant is the
“degree of acceptance within [the relevant scientific
community].” 509 U.S. at 594 (internal quotation
marks omitted) (citation omitted). The military judge
found that this factor favored admission of the
evidence because the CDC generally allow tests based
on [**38] similar science to be used for detecting
sexually transmitted infections. Appellant, however,
argues that using this kind of test “on prepubescent
child swabs and without confirmatory testing is not
accepted in the scientific community.” The distinction
that Appellant identifies is correct but Appellant has
offered no persuasive reasons that this distinction
makes the test unreliable. In addition, Appellant is
again insisting on more than what the Supreme Court
has required. The Supreme Court made clear in
Daubert that a “ ‘reliability assessment does not
require, although it does permit, explicit identification
of a relevant scientific community and an express
determination of a particular degree of acceptance
within that community.’ “ Id. (quoting United States
v. Downing, 753 F.2d 1224, 1238 (3d Cir. 1985)).
The sixth Daubert factor challenged by Appellant is
whether the “probative value [of the evidence] is
substantially outweighed by the danger of unfair
prejudice, confusion of the issues, or misleading the
jury.” Id. at 595 (internal quotation marks omitted)
(citation omitted). This factor comes from Federal
Rule of Evidence 403, which corresponds to Military

39a
Rule of Evidence 403. Id. The military judge
considered this issue carefully. He explained on the
record his conclusion that “the test results
serve [**39] to corroborate the allegations that the
accused sexually assaulted his son.” He concluded
that this probative value substantially outweighed
any unfair prejudicial effect, explaining that
Appellant could use his expert witnesses and crossexamination to ensure that the members gave proper
weight to the test results. Although Appellant
disagrees, this is the kind of decision for which
military judges are entitled to considerable deference
when they explain their reasoning. I agree with the
NMCCA that the military judge did not commit
manifest error on this point.
II. Conclusion
The Supreme Court has explained that the objective
of Daubert is “to make certain that an expert, whether
basing testimony upon professional studies or
personal experience, employs in the courtroom the
same level of intellectual rigor that characterizes the
practice of an expert in the relevant field.” Kumho Tire
Co., 526 U.S. at 152. That is what happened in this
case. The Government sought to introduce nothing
more than the results of a laboratory test that were
actually used and relied on by medical professionals
to diagnose a child so that he could receive
appropriate treatment.
The Supreme Court in Daubert did not describe an
admissibility [**40] test that is so precise and
technical that any gap, conflict, or ambiguity that
arises when considering the various factors requires

40a
exclusion of the evidence. The Supreme Court also did
not describe a test requiring every decision by a trial
judge to be scrutinized in all its minutiae. On the
contrary, the Supreme Court has emphasized that
“the trial judge must have considerable leeway in
deciding in a particular case how to go about
determining whether particular expert testimony is
reliable.” Id. And while the military judge has this
flexibility in performing his gatekeeping function, if
the judge decides to admit scientific evidence, counsel
remain free to challenge its weight—as Appellant’s
attorneys ably did in this case. See Daubert, 509 U.S.
at 596 (“Vigorous cross-examination, presentation of
contrary evidence, and careful [*130] instruction on
the burden of proof are the traditional and
appropriate means of attacking shaky but admissible
evidence.”).
In this case, the military judge responsibly considered
the Daubert factors before determining that the test
results that the victim’s physician had actually relied
on were reliable. For all the reasons above, the
military
judge
performed
his
gatekeeping
function [**41] and did not make any manifest error.

41a
UNITED STATES OF AMERICA
Appellee
v.
NICHOLAS S. BAAS,
CORPORAL (E-4), U.S. MARINE CORPS
Appellant
United States Navy-Marine Corps Court of Criminal
Appeals
March 4, 2019, Argued; April 15, 2019, Decided
NMCCA 201700318
Reporter
2019 CCA LEXIS 173 *; 2019 WL 1601912
Notice: AS AN UNPUBLISHED DECISION, THIS
OPINION DOES NOT SERVE AS PRECEDENT.
Prior History: [*1] Appeal from the United States
Navy-Marine Corps Trial Judiciary. Military Judge:
Lieutenant Colonel Forrest W. Hoover, USMC.
Sentence adjudged on 22 June 2017 by a general
court-martial panel consisting of officer and enlisted
members. Sentence approved by the convening
authority: reduction to E-1, total forfeiture of pay and
allowances, confinement for 15 years, and a
dishonorable discharge.
Counsel: For Appellant: Lieutenant
Rosinski, JAGC, USN (argued).

Daniel

E.

For Appellee: Lieutenant Kurt W. Siegal, JAGC, USN
(argued); Captain Brain L. Farrell, USMC (on brief).

42a
Judges: Before
HUTCHISON,
TANG,
and
LAWRENCE, Appellate Military Judges. Senior
Judge HUTCHISON delivered the opinion of the
Court, in which Judge TANG and Judge LAWRENCE
joined.
OPINION OF THE COURT
HUTCHISON, Senior Judge:
A general court-martial convicted the appellant,
contrary to his pleas, of conspiracy,1 making a false
official statement, two specifications of rape of a child,
two specifications of producing child pornography
with the intent to distribute, and two specifications of
distributing child pornography, in violation of Articles
81, 107, 120b, and 134, Uniform Code of Military
Justice (UCMJ), 10 U.S.C. §§ 881, 907, 920b, and 934
(2016).2 The members convicted the [*2] appellant of
raping his two-year-old son on two separate occasions
and live-streaming the sexual acts on his cell phone to

1 The appellant was charged with two specifications of
conspiracy—one alleging that he conspired to commit rape of a
child and the other alleging that he conspired to produce and
distribute child pornography. After the members returned guilty
verdicts for both conspiracy specifications, the military judge
consolidated the specifications into a single specification. See
Record at 893-94.
2 The

members acquitted the appellant of an additional
specification each of rape of a child, production of child
pornography, and distribution of child pornography.

43a
an unknown co-conspirator via the video chatting
application, Skype.3
On appeal, the appellant raises eight assignments of
error: (1) The military judge abused his discretion by
admitting a laboratory test indicating the appellant’s
son tested positive for gonorrhea; (2) the military
judge abused his discretion by failing to either
suppress the positive gonorrhea test or to abate the
proceedings after the laboratory and the hospital that
treated the appellant’s son destroyed the specimens,
preventing a confirmatory test; (3) admission of the
laboratory test results and related expert testimony
violated the appellant’s Sixth Amendment right to
confrontation; (4) admission of the Skype text
messages from the appellant’s alleged co-conspirator
violated the appellant’s Sixth Amendment right to
confrontation;4 (5) the Article 120b, UCMJ,
specifications fail to state an offense because the
government failed to allege a specific sexual act,
depriving the appellant of his constitutional rights to
notice and protection against double jeopardy; (6) the
trial defense counsel were ineffective for failing [*3] to
challenge the government’s failure to expressly allege
a specific sexual act in each of the Article 120b, UCMJ,
specifications; (7) the appellant’s convictions for rape
3 Skype is a telecommunications application that provides video
chat, instant messaging, and voice calls between computers,
tablets, and mobile devices via the Internet. See Record at 716
(“Skype is a communication package that allows you to do . . .
voice, audio, and chat messaging. The video is streaming, so you
can’t . . . save it . . . from within the Skype program.”).
4 Raised

pursuant to United States v. Grostefon, 12 M.J. 431
(C.M.A. 1982).

44a
of a child, conspiracy, and false official statement are
factually insufficient; and (8) the appellant’s
convictions for producing and distributing child
pornography and conspiracy are legally and factually
insufficient.5 We find no prejudicial error and affirm.
I. BACKGROUND
The appellant married TB in December 2013, and
their son, GB, was born the following August. In
October 2015, the appellant and TB separated and
agreed to share custody of GB, with the child splitting
time between his parents’ homes. In June 2016, the
appellant’s new girlfriend, KM, suspected the
appellant was cheating on her and looked through the
appellant’s cell phone while he was sleeping. After
scrolling through various applications, KM opened the
Skype application and found several instant messages
between the appellant and a user named “Hailey
Burtnett.” In these messages, “Hailey Burtnett”
directed the appellant, in graphic detail, to perform
various sexual acts on GB, and, from the context of the
messages, the appellant appeared [*4] to comply.
Disgusted with what she read, KM took the
appellant’s phone, woke his roommate, AF, showed
her the messages, and the two hastily left the
appellant’s apartment. KM and AF took the phone to

5 The

appellant contends his conviction for conspiring to produce
and distribute child pornography is both legally and factually
insufficient, while his conviction for conspiracy to commit rape of
a child is only factually insufficient. See Appellant’s Brief of 21
May 2018 at 3. Although the military judge consolidated the
conspiracy specifications into a single specification, see supra
note 1, we will analyze each specification separately.

45a
AF’s boyfriend, a fellow Marine, who advised KM to
turn the phone in to the appellant’s chain of command.
After the appellant’s chain of command was notified,
they contacted the Naval Criminal Investigative
Service (NCIS), and the appellant was apprehended
and subsequently interrogated by Special Agent CM.
During the interrogation, the appellant denied ever
inappropriately touching his son and claimed that
“Hailey Burtnett” was a friend he met when he was a
sophomore in high school in Alabama and that she
now lived in Clearwater, Florida. The appellant
explained that the sex acts described in their
messages were simply fantasy and that, in fact, he
performed the sex acts detailed in Hailey’s messages
on GB’s green teddy bear:
Anyways, this girl, she’s weird, kinky, and she
liked to talk like that. Well, [GB] had this little,
green, teddy bear, and there was one point where
she looked at it and she said, “Can you dress him
up?” So this little, green, like, teddy bear—it talks.
And I can tell [*5] you where it’s at right now. But,
I would dress him up, put a diaper on it and all
that good stuff. And then she would, like, ask me
to remove his clothing items and all that good
stuff. And do weird stuff to it.6
The appellant admitted to Special Agent CM that the
video chatting was only one-way; he would live-stream
from his end, but he never saw “Hailey Burtnett” on
6 Prosecution

Exhibit (PE) 10; Appellate Exhibit (AE) LXXV at 34. PE 10 is the video recording of two separate NCIS
interrogations of the appellant—conducted on 16 and 21 June,
respectively. AE LXXV is the transcript of those interrogations.

46a
video. Rather, she would only communicate with him
via instant message during their Skype sessions. A
subsequent forensic analysis of the appellant’s phones
and the Skype application confirmed that only the
appellant’s cell phone camera was activated during
the Skype conversations with “Hailey Burtnett.” No
record of the streamed video was stored either on the
cell phone or on the Skype application. Special Agent
CM attempted to identify and contact “Hailey
Burtnett.” He contacted the school the appellant said
Hailey attended and worked with local law
enforcement officers in Alabama and Florida, but he
was unable to find any record of “Hailey Burtnett.”
Forensic analysis of the Skype application and the call
logs on the appellant’s cell phone revealed that
“Hailey Burtnett’s” internet protocol (IP) address
“resolved back [*6] to Spain, France, Iceland, and
Germany,” not Clearwater, Florida.7 In addition, a
review of the Skype search warrant return records
provided by Microsoft Corporation indicated that the
IP addresses associated with “Hailey Burtnett” had
been used in Skype conversations with hundreds of
other individuals around the world.
The appellant also told Special Agent CM during the
interrogation that he recently tested positive for
chlamydia and gonorrhea and insisted a physical
exam on GB would reveal no signs of sexual abuse or
sexually transmitted infections (STIs). Upon learning
of the alleged abuse and the fact that the appellant
had STIs, TB took GB to his normal pediatricians at
Coastal Children’s Clinic. Coastal Children’s Clinic

7 Record

at 733.

47a
does not perform sexual assault forensic exams, but it
is listed on the North Carolina roster as an approved
facility for evaluating child sexual abuse allegations.
Dr. LK was the pediatrician who examined GB. She
found no physical indications of sexual abuse, but she
swabbed GB’s rectum and ordered a test for gonorrhea
and chlamydia from Diatherix Laboratories, a medical
testing laboratory. Diatherix conducted a nucleic acid
amplification test (NAAT) on the sample, [*7] which
showed the sample tested positive for gonorrhea.
Diatherix maintained the sample for ten days, then
disposed of it pursuant to their standard operating
procedure. After she received GB’s positive test result,
Dr. LK directed TB to take him to Carolina East
Medical Center for additional confirmatory testing
and treatment. Dr. LK explained that the NAAT
completed by Diatherix Laboratories was a screening
test that should be followed up with a culture test
because the culture test was “the gold standard” for
testing prepubescent children for gonorrhea.8 Dr. LK
called Carolina East, spoke with a triage nurse, and
ordered urethral and rectal culture tests. However,
Dr. LK’s orders were improperly relayed to the
treating physicians at Carolina East, who did not take
urethral or rectal samples, nor did they order any
confirmatory tests. Rather, the treating physicians
merely took a urine sample, which they erroneously
refrigerated, thus rendering the sample useless for a
culture test. That urine sample was eventually
destroyed. Carolina East physicians treated GB with
antibiotics, which would rid GB’s body of gonorrhea

8 Id.

at 622.

48a
bacteria and render any further testing for gonorrhea
“not useful.” [*8] 9
Before trial, the trial defense counsel moved to
exclude the Diatherix test results, arguing that the
test was unreliable. In a lengthy Article 39(a), UCMJ,
motions hearing held pursuant to Daubert v. Merrell
Dow Pharms., Inc., 509 U.S. 579, 113 S. Ct. 2786, 125
L. Ed. 2d 469 (1993), the parties presented
voluminous documentary evidence, including various
scientific articles and Center for Disease Control
(CDC) guidelines. In addition, the military judge
heard the testimony of three expert witnesses. In
support of his motion to exclude evidence of GB’s
positive gonorrhea test result, the appellant presented
the testimony of Dr. MH, a pediatrician and expert in
the field of STI diagnostics in children. She explained
that the CDC does not recommend using NAATs for
prepubescent boys because of concerns with validation
testing and the fact that NAATs have a cross-reaction
with other types of bacteria, resulting in a higher
probability of false positives. Moreover, Diatherix’s
NAAT had not been peer reviewed or approved by the
Food and Drug Administration (FDA). Dr. MH also
explained that the positive predictive value of GB’s
test was too low to be reliable. The positive predictive
value is the confidence that any one specimen’s
positive test result is, in fact, a true positive [*9] given
the prevalence of the disease in the relevant

9 Id.

at 623.

49a
population.10 Dr. MH expressed her concern that
because there is such a low prevalence rate for
gonorrhea in prepubescent boys, the probability that
GB’s sample was a true positive—regardless of how
accurate or specific the test was—was only around
30%, “less than flipping a coin.”11 She concluded that
the Diatherix NAAT was not a scientifically reliable
test that could produce reliable results.
The government presented the testimony of
Diatherix’s executive vice-president and clinical
director, Dr. DS. He explained that Diatherix was
fully accredited by the American College of
Pathologists (CAP) and certified in compliance with
the federal Clinical Laboratory Improvement
Amendments(CLIA) for testing bacteria like
gonorrhea. Dr. DS testified that the specific NAAT
used by Diatherix is called Target Enriched Multiplex
Polymerase Chain Reaction (TEM-PCR). Portions of
the TEM-PCR are proprietary and had not, therefore,
been submitted for approval by the FDA, but the
science behind it is the same as other commercially
available NAATs. Dr. DS also explained Diatherix’s
certification requirements. CAP periodically sent
Diatherix “blind” samples to test. Dr. DS noted that
Diatherix [*10] has a 99% accuracy rate when testing
the blind samples and a 100% accuracy rate for the
particular gonorrhea target tested in this case.
Finally, Dr. DS acknowledged that Diatherix

10 See

Id. at 278 (“So a positive predictive value is your confidence
in this one sample in front of me and its result. How confident
am I that it is a true positive and not a false positive.”).

11 Id.

at 305.

50a
normally does not conduct testing for forensic
purposes, but he stated that if the TEM-PCR were to
be used forensically, the same testing and procedure
would have been used.
In addition to Dr. DS, the government presented the
testimony of Dr. CH, an expert microbiologist. The
government presented a report Dr. DS completed
after reviewing the Diatherix testing procedures and
the results of a validation study conducted to
demonstrate the reliability of their TEM-PCR test.12
Dr. CH echoed Dr. MH’s concern about the low
prevalence rate for gonorrhea in prepubescent boys
and its effect on the positive predictive value, but
testified that there was no way to quantify a precise
prevalence rate. She also conceded that a NAAT is not
the ideal test to run for pediatric STI detection due to
the relatively low positive predictive value and the
likelihood for a false positive when testing
prepubescent children. As a result, like Dr. MH, she
was less confident in a test result from a lowprevalence population, noting that [*11] “the
resulting uncertainty about the likelihood of false
positive results in a rectal swab from a young child
represent a significant concern.”13
Nonetheless, Dr. CH concluded that the Diatherix
TEM-PCR produced scientifically valid results. Dr.
CH reported that Diatherix’s test accuracy—whether
the test results agreed with a reference standard—
was 94.6%. The precision standard, or the ability of

12 See
13 Id.

AE L.
at 7.

51a
the test to get the “correct results among 618 tests
performed on spiked samples,” was 99.7%.14 Likewise,
the sensitivity of the test, or the ability of the test to
detect gonorrhea at different concentrations, was
comparable to the sensitivity of other commercially
available tests. And finally, the test’s specificity, or its
ability to differentiate between organisms, revealed a
perfect result—returning only positive results for
gonorrhea from a panel that included 35 different
organisms. Ultimately, Dr. CH concluded that the
rectal swab sample taken from GB was “substantially
more likely” to identify gonorrhea than anything
else.15
The military judge made extensive findings of fact and
concluded that the “Diatherix test [was] a reliable test
based upon scientific principles and the members
are [*12] best situated to determine the appropriate
weight it should be given.”16 At trial, the government
offered GB’s positive gonorrhea test as a prosecution
exhibit, and Drs. LK and CH testified consistent with
their testimony at the Daubert hearing.17 The trial
defense counsel conducted an extensive crossexamination of each witness and pointed out the
various flaws both with the testing procedures done in
this case and with the use of NAATs in general to test
for STIs in prepubescent children. In addition, Dr. MH
14 Id. at 6. The TEM-PCR reported the correct result in 616 out
of 618 samples.
15 Record
16 AE
17 Dr.

at 284, 285.

LXV at 10.

CH testified in rebuttal after Dr. MH testified in the
appellant’s case-in-chief.

52a
testified in the defense case-in-chief and provided the
members, in significant detail, her expert opinion that
the test performed on GB was unreliable. Additional
facts necessary to resolve the assigned errors are
included below.
II. DISCUSSION
A. Admission of the Diatherix Laboratory Test
The appellant contends that the military judge abused
his discretion in admitting GB’s positive gonorrhea
test and the expert testimony of Drs. LK and CH, after
he conducted an incomplete Daubert analysis.
In United States v. Houser, 36 M.J. 392 (C.M.A. 1993),
our superior court analyzed the Military Rules of
Evidence and gleaned six factors that must be
established by the proponent of expert testimony: (1)
the qualifications of the expert; (2) the [*13] subject
matter of the expert testimony; (3) the basis for the
expert testimony; (4) the legal relevance of the
evidence; (5) the reliability of the evidence; and (6)
whether the probative value outweighs other
considerations. Id. at 397. Shortly after Houser was
decided, the Supreme Court decided Daubert, in which
the Court focused on the reliability and relevance of
the evidence. The Court identified six factors to
consider in determining whether scientific evidence
meets the requirements for reliability and relevance:
(1) whether the theory or technique can be (and has
been) tested;
(2) whether the theory or technique has been
subjected to peer review and publication;

53a
(3) the known or potential error rate;
(4) the existence and maintenance of standards
controlling the technique’s operation;
(5) the degree of acceptance within the relevant
scientific community; and
(6) whether the probative value of the evidence is
substantially outweighed by the danger of unfair
prejudice, confusion of the issues, or misleading the
jury.
Daubert, 509 U.S. at 593-95. Daubert and Houser are
consistent, with Daubert “providing more detailed
guidance on the fourth and fifth Houser prongs.”
United States v. Griffin, 50 M.J. 278, 284 (C.A.A.F.
1999). Thus, “[b]oth the Houser and Daubert decisions
provide [*14] . . . factors to consider in admitting
expert testimony and evidence.” United States v.
Henning, 75 M.J. 187, 191 (C.A.A.F. 2016). The
military judge considers these factors, in his role as
“gatekeeper,” to ensure that scientific evidence “both
rests on a reliable foundation and is relevant.” United
States v. Sanchez, 65 M.J. 145, 149 (C.A.A.F. 2007)
(citing Daubert, 509 U.S. at 597; Kumho Tire Co. v.
Carmichael, 526 U.S. 137, 141, 119 S. Ct. 1167, 143 L.
Ed. 2d 238 (1999)).
We review a military judge’s rulings to admit expert
testimony and scientific evidence for an abuse of
discretion. See United States v. Thomas, 49 M.J. 200,
202 (C.A.A.F. 1998). “A military judge abuses his
discretion when: (1) the findings of fact upon which he
predicates his ruling are not supported by the
evidence of record; (2) if incorrect legal principles were

54a
used; or, (3) if his application of the correct legal
principles to the facts is clearly unreasonable.” United
States v. Ellis, 68 M.J. 341, 344 (C.A.A.F. 2010).
Therefore, a military judge has a “range of choices and
will not be reversed so long as the decision remains
within that range.” Sanchez, 65 M.J. at 148-49
(citations and internal quotation marks omitted).
We review de novo, however, the question of whether
the military judge properly followed the Daubert
framework and performed his role as gatekeeper.
United States v. Flesher, 73 M.J. 303, 311 (C.A.A.F.
2014). If the military judge properly performs his
gatekeeping function and follows the Daubert
framework, we “will not overturn the ruling unless it
is manifestly erroneous.” Griffin, 50 M.J. at 284.
Indeed, the military judge “enjoys [*15] a great deal
of flexibility in his or her gatekeeping role: ‘the law
grants a [trial judge] the same broad latitude when
[he] decides how to determine reliability as [he] enjoys
in respect to [his] ultimate reliability determination.’”
United States v. Billings, 61 M.J. 163, 167 (C.A.A.F.
2005) (quoting Kumho Tire Co., 526 U.S. at 142
(1999)) (emphasis in original).
On appeal, the appellant contends that the military
judge misapplied Daubert and failed to reconcile his
findings of fact with several issues raised by the
defense expert, Dr. MH, that tend to undermine the
conclusion that the Diatherix test was scientifically
valid and, therefore, reliable. The appellant does not
attack the military judge’s findings of fact, but argues
that he failed to consider additional evidence in
reaching his conclusions. In his brief before this court,
the appellant identifies the evidence of record

55a
supporting his arguments on each individual Daubert
factor and argues that the military judge erred in
finding the Diatherix test reliable. In particular, the
appellant rehashes the arguments made at trial,
supported by the testimony of Dr. MH: the Diatherix
test was not tested for accuracy in identifying
gonorrhea in prepubescent children, until after GB’s
positive result, and then, only in anticipation [*16] of
litigation, thereby violating scientific testing
principles; the test was not subject to publication and
other NAATs that were peer-reviewed were not a
satisfactory proxy because Dr. DS testified that the
Diatherix test was unique; the potential for a false
positive, given the low positive predictive value and
the low prevalence of gonorrhea in prepubescent
children, was extremely high; Diatherix failed to
follow its own standards for testing rectal samples;
and using a NAAT as a forensic test on prepubescent
children without a confirmatory culture test is not
widely accepted in the scientific community.
Having conducted our de novo review, we disagree and
conclude that the military judge properly performed
his gatekeeping function and applied the Daubert
framework. The military judge made extensive
findings of fact, which were supported by the
voluminous record, articulated the correct legal
principles under Houser and Daubert, and applied the
law to the facts. “[W]here the military judge places on
the record his analysis and application of the law to
the facts, deference is clearly warranted.” Flesher, 73
M.J. at 312. Applying the Daubert factors, the military
judge found that the Diatherix test had [*17] been
tested through both a validation study and from blind
samples sent to the lab as part of Diatherix’s lab

56a
certification through CAP and CLIA. The military
judge acknowledged the defense expert’s opinion that
the validation data was not specific to pediatric rectal
samples, and thus undermined its reliability, but
concluded that the “exact validation data used does
not invalidate the general scientific principles behind
the test itself.”18 The military judge also found that
although the Diatherix test had not been subjected to
peer review or publication, other NAATs with similar
characteristics had been cleared by the FDA and
subjected to peer review. Additionally, the military
judge found that the CDC generally allows for the use
of NAATs for STI testing and, thus, NAATs have been
accepted within the laboratory testing community.
The military judge also examined the error rate and
noted the concerns regarding the low positive
predictive value, but concluded that the “likelihood of
a false positive associated with the testing population
does not undermine the scientific principles upon
which the test is based.”19 In reaching this conclusion,
the military judge specifically noted the [*18]
conflicting testimony of Dr. MH—who testified
alternately that the positive predictive value was
“either 50% or lower, or 30%”—and Dr. CH who was
unable to give a quantitative measure of the positive
predictive value because there was no way to precisely
determine the prevalence rate in the relevant
population, or to even define the relevant
population.20 Citing Sanchez, the military judge
18 AE

LXV at 9.

19 Id.

at 10.

20 Id.

57a
specifically concluded that “[t]he existence of an error
rate or disagreement over what that rate may be does
not render the test inadmissible.”21 The military judge
also concluded that the probative value of GB’s
positive gonorrhea test—as corroborating evidence
that the appellant raped GB—was not substantially
outweighed by its prejudicial effect.
There is also no merit to the appellant’s assertion that
the military judge failed to adequately address each of
the Daubert factors. Specifically, the appellant argued
that the military judge did not make any legal
conclusion concerning Diatherix’s adherence to any
standards controlling operation of their test. “It is not
necessary to satisfy every Daubert or Houser factor as
the inquiry is a flexible one, and the factors do not
constitute a definitive [*19] checklist or test.” United
States v. Patrick, 78 M.J. 687, 700 (N-M. Ct. Crim.
App. 2018) (citation and internal quotation marks
omitted).
Finally, we are also mindful that an appellate court is
not the appropriate place to re-litigate a Daubert
motion. See United States v. Bush, 47 M.J. 305, 311
(C.A.A.F. 1997). The military judge heard testimony
from competing experts, acknowledged the flaws and
potential problems with the Diatherix test, but
nevertheless concluded that it was a scientifically
valid test whose result was reliable. We cannot say,
given the record before us, that the military judge’s
conclusion was “manifestly erroneous.” Griffin, 50
M.J. at 284. In short, the military judge understood
and applied the correct law in deciding whether to
21 Id.

(citing Sanchez, 65 M.J. at 151).

58a
admit GB’s positive gonorrhea test results and the
related expert testimony, and did not abuse his
discretion.
B. Preservation of Evidence
The appellant next argues that the military judge
erred in failing to abate the proceedings or suppress
the results of GB’s gonorrhea test after Diatherix
destroyed the tested rectal swab and Carolina East
Medical Center destroyed a urine sample, thereby
preventing a confirmatory test. The military judge
made extensive findings of fact and conclusions of law
and ruled that the rectal swab tested by Diatherix and
the urine [*20] sample drawn at Carolina East were
“not of such central importance that they are essential
to a fair trial.”22
We review a military judge’s denial of a defense
motion to abate proceedings for an abuse of discretion.
United States v. Simmermacher, 74 M.J. 196, 199
(C.A.A.F. 2015) (citing United States v. Ivey, 55 M.J.
251, 256 (C.A.A.F. 2001)). “An abuse of discretion
occurs when a court’s findings of fact are clearly
erroneous or the decision is influenced by an
erroneous view of the law.” Id. (citing United States v.
Lubich, 72 M.J. 170, 173 (C.A.A.F. 2013)).
Rule for Courts-Martial (R.C.M.) 703(f)(2), MANUAL
FOR COURTS-MARTIAL (MCM), UNITED STATES
(2016 ed.), provides, in pertinent part:
a party is not entitled to the production of evidence
which is destroyed, lost, or otherwise not subject
22 AE

LXXII at 4.

59a
to compulsory process. However, if such evidence
is of such central importance to an issue that it is
essential to a fair trial, and if there is no adequate
substitute for such evidence, the military judge
shall grant a continuance or other relief in order
to attempt to produce the evidence or shall abate
the proceedings, unless the unavailability of the
evidence is the fault of or could have been
prevented by the requesting party.
In Simmermacher, the Court of Appeals for the Armed
Forces (CAAF) reviewed R.C.M. 703(f)(2) and held
that a military judge abused his discretion when he
failed to abate proceedings related to a charge [*21] of
wrongful use of cocaine after the Naval Drug
Screening Laboratory destroyed Simmermacher’s
urine sample. 74 M.J. at 202. The Court held that
“R.C.M. 703(f)(2) is an additional protection the
President granted to servicemembers whose lost or
destroyed evidence fall within the rule’s criteria” and
goes beyond constitutional due process standards,
which require a showing of bad faith on the part of the
government. Id. at 201. Thus, when seeking
abatement because relevant, material evidence was
destroyed or lost, the defense must show that: (1) the
evidence is of such central importance to an issue that
it is essential to a fair trial; (2) there is no adequate
substitute for the evidence; and (3) the defense was
not at fault for the evidence being destroyed. Id. at
201-203; R.C.M. 703(f)(2).
The appellant argues that the rectal swab taken from
GB was used by the government to prove that GB did,
in fact, have gonorrhea. Since gonorrhea can only be
transmitted through sexual activity, the rectal swab

60a
and urine sample taken at Carolina East were,
according to the appellant, of central importance to
whether he committed a sexual act upon GB. With no
ability to retest the rectal swab or to test the urine
sample taken at Carolina East, the appellant argues
the [*22] samples were essential to a fair trial.
First, we note that the appellant does not identify any
erroneous findings of fact from the military judge’s
ruling, nor does he identify any rule or binding law
that the military judge failed to consider. Rather, the
appellant attacks the military judge’s conclusion that
the samples were not of such central importance to an
issue that they were essential to a fair trial. Therefore,
we examine whether the military judge’s decision was
influenced by an erroneous view of the law.
In United States v. Manuel, 43 M.J. 282 (C.A.A.F.
1995), a case that pre-dates Simmermacher by 20
years, the CAAF upheld a lower court decision
excluding the results of a positive urinalysis after the
sample tested had been lost or destroyed. Id. at 289.
Citing R.C.M. 703(f)(2), the court concluded that since
“the urinalysis result was the only evidence of the
accused’s wrongful use of cocaine, the urine sample
was of central importance to the defense.” Id. at 288
(emphasis added). In Simmermacher, the CAAF found
“no meaningful distinction between the situation in
Manuel
and
[Simmermacher’s]
situation.”
Simmermacher, 74 M.J. at 201. Reasoning that “[i]n
both cases . . . the samples were the sole evidence of
drug use,” the court held that Simmermacher’s urine
sample was of such central [*23] importance that it
was essential to a fair trial. Id.

61a
The appellant’s case is easily distinguished from both
Manuel and Simmermacher. First, neither the rectal
sample taken from GB by Dr. LK nor the urine sample
taken at Carolina East were the “sole evidence” of the
charges. Id. Rather, the Skype messages with “Hailey
Burtnett” and the appellant’s admissions to
performing the sexual acts—although claiming he
performed them on GB’s green teddy bear—were proof
of the sexual acts. Moreover, unlike the appellants in
Manuel and Simmermacher, whose positive test
results revealed the presumptive presence of a
contraband substance, the appellant could not be
convicted of any crime based solely on GB’s positive
gonorrhea test. Instead, GB’s rectal swab simply
provided corroboration that the appellant—who also
tested positive for gonorrhea—committed a sexual act
upon GB. While relevant and material, this evidence
was not of such central importance to whether or not
the appellant committed a sexual act on GB that it
was essential to a fair trial.
The appellant argues that “[e]vidence can still be of
central importance to determination of an issue even
if it is neither the only evidence on an issue, [*24] nor
dispositive.”23 He points to United States v. Seton, No.
2013-27, 2014 CCA LEXIS 103 (A.F. Ct. Crim. App. 24
Feb 2014) (unpub. op.), in support of this proposition.
In Seton, the Air Force Court of Criminal Appeals
upheld a military judge’s dismissal of the sole charge
and specification alleging sexual assault after the
government lost the surveillance video from the
barracks where the alleged assault took place. Id. at

23 Appellant’s

Brief of 21 May 2018 at 65.

62a
*5-6, 18. Although the video was lost, a witness who
had seen it confirmed that the video showed flirtatious
behavior between the accused and his alleged victim
that contradicted the alleged victim’s testimony. Id. at
*5-6. The Air Force Court agreed with the military
judge that the video was of such central importance to
an issue that was essential to a fair trial—the alleged
victim’s credibility—and that no adequate substitute
existed because it had been over a year since the
witness had seen the video and he only remembered
some of the details. Id. at *16.
Again, the appellant misapprehends the nature of the
rectal swab evidence. In Seton, the lost evidence was
clearly exculpatory and called into question the
veracity of the alleged victim’s claims. See Giglio v.
United States, 405 U.S. 150, 154, 92 S. Ct. 763, 31 L.
Ed. 2d 104 (1972) (finding exculpatory evidence
includes “evidence affecting” witness “credibility,”
where the witness’ [*25] “reliability” is likely
“determinative of guilt or innocence”). Military courts
have long recognized that evidence that is “clearly
exculpatory” is of central importance to an issue that
is essential to a fair trial.24 But here, neither the rectal

24 See

United States v. Alston, 33 M.J. 370, 374 (C.M.A. 1991)
(affirming military judge’s failure to abate the proceeding after
concluding a potential witness’s testimony was not “clearly
exculpatory” and comparing the “clearly exculpatory” standard
from military case law with then-existing R.C.M. 704(e), which
authorized military judges to abate the proceedings against an
accused if the convening authority failed to grant testimonial
immunity to a witness and that witness’ “testimony would be of
such central importance to the defense case that it is essential to
a fair trial”) (quoting R.C.M. 704(e), MCM (1984 ed.) (emphasis
in original)).

63a
swab nor the urine sample was clearly exculpatory.
Another case by our sister court illustrates this point.
In United States v. Terry, 66 M.J. 514 (A.F. Ct. Crim.
App. 2008), the Air Force Court held that the military
judge abused his discretion in dismissing a rape
specification after the government lost still
photographs taken from a surveillance camera located
outside a hospital examination room where the
alleged rape occurred. Id. at 518, 520. Although the
accused argued that the missing photos might prove
useful at trial, unlike the missing surveillance video
in Seton, there was no indication of what the missing
photos captured. The court held that “[t]he possibility
that potentially exculpatory images could have been
found on the surveillance photos is simply too
speculative to conclude that the missing photos were
‘of central importance to an issue that is essential to a
fair trial.’” Id. at 518. The appellant’s claims here are
similar. The appellant’s assertion that a confirmation
test would prove exculpatory or could [*26]
potentially rebut the findings of the Diatherix test is
purely speculative. Indeed, based on the substantial
validation data from Diatherix, a confirmation test
could have very well have further incriminated the
appellant.
Because the samples taken from GB were not the only
evidence related to the charges and were not
otherwise clearly exculpatory, we agree with the
military judge and conclude that the evidence was not
of such central importance to an issue that was
essential to a fair trial. As a result, the military judge
was not influenced by an erroneous view of the law
and did not, therefore, abuse his discretion in failing
to abate the proceedings.

64a
C. Confrontation Clause
The Sixth Amendment’s Confrontation Clause confers
upon a criminal accused “the right . . . to be confronted
with the witnesses against him.” The Sixth
Amendment, therefore, “prohibits the introduction of
testimonial statements by a non-testifying witness
unless the witness is ‘unavailable to testify, and the
defendant had had a prior opportunity for crossexamination.’” Ohio v. Clark, 135 S. Ct. 2173, 2179,
192 L. Ed. 2d 306 (2015) (quoting Crawford v.
Washington, 541 U.S. 36, 54, 124 S. Ct. 1354, 158 L.
Ed. 2d 177 (2004)). Testimonial statements are those
statements that are “[a] solemn declaration or
affirmation made for the purpose of establishing [*27]
or proving some fact.” Crawford, 541 U.S. at 51
(alteration in original) (citation and internal
quotation marks omitted). Testimonial statements
include
affidavits,
custodial
examinations,
certifications, and lab reports that are “prepared in
connection with a criminal investigation or
prosecution.” Bullcoming v. New Mexico, 564 U.S. 647,
658, 131 S. Ct. 2705, 180 L. Ed. 2d 610 (2011).
“Whether admitted evidence constitutes testimonial
hearsay is a question of law reviewed de novo.” United
States v. Tearman, 72 M.J. 54, 58 (C.A.A.F. 2013)
(citation omitted). The appellant argues that his Sixth
Amendment right to confrontation was violated in two
ways. First, he contends that the Diatherix lab report
contained testimonial hearsay and was admitted into
evidence through the testimony of Drs. LK and MH,
neither of whom worked at Diatherix and neither of
whom had independent knowledge of the testing
procedures. Second, the appellant avers that the

65a
Skype messages from “Hailey Burtnett” were
testimonial. We address each allegation in turn.
1. Diatherix lab report
The appellant argues that the Diatherix lab
technicians who performed the testing on GB’s rectal
swab knew they were testing a rectal swab from a
young child for gonorrhea. The Diatherix lab report
indicated GB’s age.25 The appellant argues that “an
objective witness in the position of the Diatherix
analyst( s)’ [*28] [sic] would reasonably believe that
the NAAT results would be available for use at a later
trial” because they knew a child of GB’s age could not
legally consent to sexual activity, and sexual activity
is the only way he could have contracted gonorrhea.26
The appellant relies on the Supreme Court’s decision
in Melendez-Diaz v. Mass., 557 U.S. 305, 129 S. Ct.
2527, 174 L. Ed. 2d 314 (2009), for his argument that
the Diatherix lab report contained testimonial
hearsay. Melendez-Diaz was convicted of distributing
and trafficking in cocaine after the State presented
“certificates of analysis” from laboratory analysts
showing the results of a forensic test on the substance
seized from him. Id. at 308. The forensic tests were
completed by “a state laboratory required by law to
conduct chemical analysis upon police request.” Id.
The Court held that the “certificates of analysis,”
which were sworn to before a notary public, were
“quite plainly affidavits” that were “made under
25 See

PE 4 at 7.

26 Appellant’s

Brief at 77 (emphasis in original).

66a
circumstances which would lead an objective witness
reasonably to believe that the statement would be
available for use at a later trial.” Id. at 310-311
(citation and internal quotation marks omitted).
Because the analysts were aware of the affidavits’
evidentiary purpose—which was stated plainly on the
face of the “certificate”—the [*29] affidavits were
testimonial statements. The Court, therefore held,
that “[a]bsent a showing that the analysts were
unavailable to testify at trial and that [MelendezDiaz] had a prior opportunity to cross-examine them,
[he] was entitled to be confronted with the analysts at
trial.” Id. at 311(emphasis in original) (citation
omitted).
The Supreme Court of Virginia rejected a claim
similar to the one the appellant advances here. In
Sanders v. Commonwealth, 282 Va. 154, 711 S.E.2d
213 (Va. 2011), the court ruled that a lab report
indicating that Sanders’ minor daughter tested
positive for chlamydia was nontestimonial because
the report was a “medical report[] created for
treatment purposes,” which is a class of documents
the Supreme Court explicitly excluded from the
definition of testimonial hearsay. Id. at 218 (quoting
Melendez-Diaz, 557 U.S. at 312 n.2). Distinguishing
Melendez-Diaz, the Virginia court noted that the
private laboratory in question was not a crime lab
“testing for narcotics or DNA” and that the lab tested
a sample submitted by a medical clinic, rather than
from the police. Id. at 220. As a result, the court held
that a laboratory technician would not have reason to
believe that the results of his or her testing would be
used in a later trial. Id. The appellant’s case is similar

67a
to Sanders and [*30] easily distinguishable from
Melendez-Diaz.
While the Supreme Court has not articulated a
comprehensive definition of testimonial statements,
the CAAF has recognized that the analysis must be
fact specific, “meaning that it is contextual, rather
than subject to mathematical application of bright
line thresholds.” United States v. Squire, 72 M.J. 285,
288 (C.A.A.F. 2013) (citation and internal quotation
marks omitted). We, therefore, take “an objective look
at the totality of the circumstances surrounding the
statement.” United States v. Gardinier, 65 M.J. 60, 65
(C.A.A.F. 2007). The CAAF has developed “a set of
factors” to guide this objective, but contextual,
analysis:
(1) the statement was elicited by or made in
response to a law enforcement or prosecutorial
inquiry;
(2) the statement involved more than a routine
and objective cataloging of unambiguous factual
matters; and
(3) the primary purpose for making, or eliciting,
the statement was the production of evidence with
an eye toward trial.
Squire, 72 M.J. at 288 (citing Gardinier, 65 M.J. at 65;
United States v. Rankin, 64 M.J. 348, 352 (C.A.A.F.
2007)).
Our application of these factors reveals the
similarities between the appellant’s case and Sanders,
and its differences with Melendez-Diaz. First, we
observe that the Diatherix lab report was not made in

68a
response to a law enforcement or prosecutorial
inquiry. Rather, TB took GB to his normal
pediatrician [*31] after learning that the appellant
had contracted gonorrhea and may have sexually
assaulted GB. Dr. LK examined GB and, based on the
allegations relayed to her by TB, took a rectal swab
from GB and sent it to Diatherix to be tested. Dr. LK
was a physician in private practice and was not
employed by any municipal, county, state, or federal
government. Likewise, Diatherix is a private, forprofit laboratory that conducts medical testing for
hospitals and clinics, just like the private lab in
Sanders. In contrast, the evidence tested in MelendezDiaz was sent by police to a state-run laboratory
which was required by law to forensically test the
substance. The analysts’ certificates identified the
substance tested as cocaine, and those certificates
were admitted into evidence pursuant to state law as
“prima facie evidence of the composition, quality, and
the net weight of the narcotic . . . analyzed.” MelendezDiaz, 557 U.S. at 309 (citation and internal quotation
marks omitted).
Second, the Diatherix lab technicians who tested GB’s
rectal swab and completed the Diatherix lab report
simply cataloged unambiguous factual matters. That
a statement contains “unambiguous factual matters”
does not necessarily make it nontestimonial. [*32] See
United States v. Sweeney, 70 M.J. 296, 302 (C.A.A.F.
2011). It is merely one “relevant consideration in
determining whether statements are testimonial.”
Squire, 72 M.J. at 289. But since the Diatherix lab
technicians were not engaged in a law enforcement
function and were instead working in a
“nonadversarial environment, where they conduct

69a
routine series of tests requiring virtually no
discretionary judgments,” their data entry on the
Diatherix lab report merely cataloged the results of
the tests performed. United States v. Magyari, 63 M.J.
123, 126-27 (C.A.A.F. 2006).
Finally, the primary purpose for making, or eliciting,
the statement was not for evidence at trial, but to
treat GB. Dr. LK is a pediatrician and GB was her
patient. Dr. LK requested the lab report from
Diatherix, a private medical laboratory, and Diatherix
returned the report not to the police, but to Dr. LK,
who then included it in GB’s medical records. See
Clark, 135 S. Ct. at 2182 (“Statements made to
someone who is not principally charged with
uncovering and prosecuting criminal behavior are
significantly less likely to be testimonial than
statements given to law enforcement officers.”). Thus,
unlike Melendez-Diaz, in which case the forensic
analysts understood that the primary purpose for
their reports was for use as “prima facie evidence” at
a future trial, there is nothing [*33] to suggest that
the Diatherix laboratory technicians who tested GB’s
rectal swab understood that their report would be
used for a non-medical purpose.
Rather, the record suggests that Diatherix, like the
lab in Sanders, tested the rectal swab sample just as
they would test any sample received from any medical
clinic or practitioner. Moreover, unlike the certificates
in Melendez-Diaz, there is no sworn attestation on the
Diatherix lab report. Nor is there a statement on the
lab report indicating the tests results were intended
for evidentiary purposes. In fact, the Diatherix lab
report contains no signatures, was not accompanied

70a
by any chain of custody documentation, and merely
consists of a single page identifying the patient’s
name, the “ordering physician,” the date the specimen
was collected, received, and reported, the organisms
tested for, and an “X” in either a column labeled
“DETECTED” or “NOT DETECTED,” for each
organism.27 In short, the Diatherix lab report “lack[s]
any indicia of formality or solemnity that, if present,
would suggest an evidentiary purpose.” Tearman, 72
M.J. at 61. In Tearman, the CAAF found the lack of
formality in various chain of custody documents and
internal review worksheets [*34] integral to their
ultimate holding that the documents were not
testimonial. Id. The court concluded that the
documents, like the Diatherix lab report, “utterly
lacked attendant formalities, a characteristic that
stands in stark contrast to the formal, affidavit-like
certificates and memoranda at issue in . . . MelendezDiaz.” Id.
Having completed our contextual, objective analysis,
we conclude that the Diatherix lab report was not
testimonial and that the appellant was not denied his
Sixth Amendment right to confrontation.
2. Hailey Burtnett Skype messages
The appellant argues that the admission of “Hailey
Burtnett’s”
Skype
messages
violated
the
Confrontation Clause. We review the military judge’s
decision to admit or exclude evidence under an abuse
of discretion standard. United States v. Barnett, 63
M.J. 388, 394 (C.A.A.F. 2006). When reviewing a
27 PE

4 at 7.

71a
mixed question of fact and law, such as the military
judge’s ruling on the admissibility of “Hailey
Burtnett’s” Skype messages, we apply a clearlyerroneous standard to the military judge’s findings of
fact, and a de novo standard to his conclusions of law.
United States v. Rodriguez, 60 M.J. 239, 246 (C.A.A.F.
2004).
But, because the appellant raises his Confrontation
Clause claims for the first time on appeal,28 we review
for plain error. United States v. Jones, 78 M.J. 37, 44
(C.A.A.F. 2018). “Plain error occurs where (1) there
was error, (2) the error was plain [*35] and obvious,
and (3) the error materially prejudiced a substantial
right of the accused.” Id. (citation and internal
quotation marks omitted).
The Skype messages with “Hailey Burtnett” contain
statements concurrently discussing the rape of GB. In
response to the appellant’s hearsay and relevancy
objections, the military judge noted that the
“overwhelming majority of the [Skype] messages from
Hailey Burtnett are questions, requests, and
instructions directed at the accused” and “do not have
an underlying factual assertion that is being offered
for the truth.”29 Additionally, to the extent the
messages contained assertions being offered for the
truth, the military judge found the messages to be

28 The

appellant moved the court-martial to exclude “Hailey
Burtnett’s” Skype message on hearsay and relevancy grounds,
but did not cite the Sixth Amendment or argue that admission of
the messages violated his rights under the Confrontation Clause.
See AE XXXIV; AE LXI.

29 Record

at 397.

72a
non-hearsay as statements of a co-conspirator in
furtherance of the conspiracy. See MILITARY RULE
OF EVIDENCE (MIL. R. EVID.) 801(d)(2)(E), MCM
(excluding from the definition of hearsay a statement
“made by the party’s co-conspirator during and in
furtherance of the conspiracy”). The military judge
found by a preponderance of the evidence that such a
conspiracy existed; that “Hailey Burtnett” and the
appellant were “members of the conspiracy”; “that the
conspiracy was ongoing during the date range [*36] of
the offered [Skype] messages”; and that “the
statements were made in the furtherance of the
conspiracy.”30 In finding that a conspiracy existed, the
military judge relied on the content of the messages,
the STI diagnoses of both the appellant and GB, and
the appellant’s statements to NCIS.
We find support in the record for the military judge’s
findings and conclude that they are not clearly
erroneous. We also agree with the military judge’s
conclusions that a conspiracy existed between the
appellant and “Hailey Burtnett”; that it existed
during the timeframe the messages were sent; and
that the admitted messages were in furtherance of the
conspiracy. Consequently, we conclude that the
military judge did not abuse his discretion in
admitting the Skype messages as non-hearsay
statements of a co-conspirator, pursuant to MIL. R.
EVID. 801(d)(2)(E).
Since the messages are non-hearsay statements of coconspirators, they are not testimonial and their
admission does not violate the appellant’s Sixth
30 Id.

at 398.

73a
Amendment right to confrontation. See Crawford, 541
U.S. at 56 (“Most of the hearsay exceptions covered
statements that by their nature were not
testimonial—for example . . . statements in
furtherance of a conspiracy.”); Giles v. California, 554
U.S. 353, 374 n.6, 128 S. Ct. 2678, 171 L. Ed. 2d 488
(2008)
(discussing
how
the
co-conspirator
exception [*37] to hearsay “did not violate the
Confrontation Clause” even before Crawford was
decided because “an incriminating statement in
furtherance of the conspiracy would probably never be
. . . testimonial.”). Thus, it was not error, much less
plain error, for the military judge to admit the Skype
messages.
D. Failure to State an Offense
1. Failure to allege a specific sexual act
Next, the appellant avers that the specifications
alleging that he raped GB fail to state an offense
because neither allege an actus reus.31 Specifications
1 and 3 of Charge II state, in pertinent part that the
appellant:
did, at or near New Bern, NC, . . . commit a sexual
act upon a child, [GB], who had not attained the
age of 12 years.32

31 The

appellant argues in his brief that Specifications 1-3 of
Charge II each fail to state an offense. See Appellant’s Brief at
88. Because the appellant was acquitted of Specification 2, our
review considers only Specifications 1 and 3 of Charge II.

32 Charge

Sheet.

74a
Specifically, the appellant argues that because the
specifications fail to allege the type of sexual act he
committed upon GB, they therefore fail to allege an
essential element of the offense, and fail to provide
him notice and protection against double jeopardy. We
disagree.
We review de novo the question of whether the
specification states an offense. United States v.
Crafter, 64 M.J. 209, 210 (C.A.A.F. 2006). Since the
appellant did not raise this issue at trial, we review
for plain error. United States v. Ballan, 71 M.J. 28, 34
(C.A.A.F. 2012); see also United States v. Sorrells, No.
201700324, 2019 CCA LEXIS 112, at *6 (N-M. Ct.
Crim. App. 13 Mar. 2019) (unpub. op.). The
appellant [*38] has the “burden of demonstrating
that: (1) there was error; (2) the error was plain or
obvious; and (3) the error materially prejudiced a
substantial right,” specifically his right to notice.
United States v. Humphries, 71 M.J. 209, 214-15
(C.A.A.F. 2012) (quoting United States v. Girouard, 70
M.J. 5, 11 (C.A.A.F. 2011)) (internal quotation marks
omitted).
The military is a notice pleading jurisdiction. United
States v. Fosler, 70 M.J. 225, 229 (C.A.A.F. 2011).
R.C.M. 307(c)(3) states that a specification must
“allege[ ] every element of the charged offense
expressly or by necessary implication.” A charge is
sufficient if it “contains the elements of the offense
charged and fairly informs a defendant of the charge
against which he must defend” and “enables him to
plead an acquittal or conviction in bar of future
prosecutions for the same offense.” Hamling v. United
States, 418 U.S. 87, 117, 94 S. Ct. 2887, 41 L. Ed. 2d

75a
590 (1974). Therefore, a specification must: (1) allege
every element of the charged offense expressly or by
necessary implication; and (2) protect the accused
from double jeopardy. Fosler, 70 M.J. at 229.
The specifications under Charge II alleged violations
of Article 120b(a). The text of Article 120b(a) states:
Any person subject to this chapter who commits a
sexual act upon a child who has not attained the
age of 12 years . . . is guilty of rape of a child and
shall be punished as a court-martial may direct.33
For Article 120b, the term “sexual act” is defined by
reference [*39] to Article 120(g)(1) as either:
(A) contact between the penis and the vulva or
anus or mouth, and for the purposes of this
subparagraph contact involving the penis occurs
upon penetration, however slight; or
(B) the penetration, however slight, of the vulva or
anus or mouth of another by any part of the body
or by any object, with an intent to abuse,
humiliate, harass, or degrade any person or to
arouse or gratify the sexual desire of any person.34
We are satisfied that the specifications allege, either
expressly or by implication, every element of rape of a
child, and therefore state offenses. By alleging that
the appellant committed “a sexual act upon” his son,
Specifications 1 and 3 of Charge II necessarily
imported the definition of “sexual act” from Article

33 10

U.S.C. § 920b(a).

34 Id.

at § 920(g)(1).

76a
120(g), UCMJ, and put the appellant on notice that
the government was required to prove that the
appellant’s conduct comported with the statutory
definition. See United States v. Resendiz-Ponce, 549
U.S. 102, 105-07, 127 S. Ct. 782, 166 L. Ed. 2d 591
(2007) (reversing lower court ruling which dismissed
an indictment for attempting to enter the country
illegally because it failed to allege a specific “overt act”
and explaining that an “overt act” is and has been
necessary to and part of the definition of an
“attempt”). [*40] By alleging that the appellant did
“commit a sexual act upon” GB, the government
placed the appellant on notice that they had merely to
prove one of the several different types of sexual acts
defined in Article 120(g), UCMJ, and that the
appellant, therefore, needed to defend against all the
various theories of liability—which is precisely what
he did at trial. Finally, under any theory of liability or
method of committing the crime, each specification
remains but a single offense and provides ample
protection against double jeopardy. See United States
v. Shermot, 77 M.J. 742, at *9 (C.G. Ct. Crim. App.
2018), rev. denied 78 M.J. 105, 2018 CAAF LEXIS 559
(C.A.A.F., Aug. 22, 2018).
Moreover, the appellant fails to cite a single case
holding that a charge or specification alleging rape of
a child under Article 120b, UCMJ, must describe the
specific type of sexual act to be found sufficient. An
error is not plain if it requires this court to extend
established precedent. United States v. Mitchell, 77
M.J. 725, 735 (N-M. Ct. Crim. App. 2018) (citing
United States v. Nieto, 66 M.J. 146, 151 (C.A.A.F.
2008) (Stucky, J., concurring) (error not plain if the
theory requires “the extension of precedent.”) (citation

77a
omitted)). With no binding or persuasive authority
holding that the specific underlying conduct must be
explicitly pleaded in the specification, any claimed
error is neither clear nor obvious.
Regardless, [*41] even were we to find plain error, the
appellant is entitled to a remedy only if he can show
prejudice to a substantial right. See Ballan, 71 M.J. at
35. “An error in charging an offense is not subject to
automatic dismissal, even though it affects
constitutional rights.” United States v. Wilkins, 71
M.J. 410, 413 (C.A.A.F. 2012) (citing Humphries, 71
M.J. at 212). Because the appellant did not object at
trial, he bears the burden of proving prejudice and
must show “that under the totality of the
circumstances in this case, the Government’s error . .
. resulted in material prejudice to his substantial,
constitutional right to notice.” Id. at 413 (alterations,
citation, and internal quotation marks omitted). Here,
the appellant fails to do so because he cannot establish
prejudice to his ability to defend against the charge he
was convicted of or his right to notice.
In Wilkins, the CAAF held that an appellant failed to
show prejudice from a plain charging error because
his defense theory would not have changed had the
error not been present. Id. at 414-15. Here, the
appellant’s defense did not focus on which particular
conduct he was charged with committing upon GB. He
never requested a bill of particulars pursuant to
R.C.M. 906(b)(6) or moved for a finding of not guilty
under R.C.M. 917. Rather, the appellant’s defense was
that he did [*42] not commit any sexual act with GB
and that the Skype messages with “Hailey Burtnett”
reflected fantasy role play using GB’s green teddy

78a
bear. Therefore, even if the government had alleged
the specific conduct described in the texts, we are
unconvinced that the appellant’s trial strategy would
have changed.
In addition, when a specification is defective because
it fails to allege an essential element, “we look to the
record to determine whether notice of the missing
element is somewhere extant in the trial record.”
Humphries, 71 M.J. at 215-16. Here, the record
conclusively demonstrates that the appellant was on
notice of the specific acts underlying the charged
specifications. The appellant was aware of every
substantive piece of evidence the government
presented to the members, including the complete
exchange of Skype text messages between himself and
“Hailey Burtnett” and the results of both his and GB’s
gonorrhea tests.
Finally, the military judge properly instructed the
members on the definition of “sexual act,”
incorporating the various theories of liability.35 The
members returned general verdicts of guilty to two of
the three specifications alleging that the appellant
raped GB. The CAAF has explained that [*43] general
verdicts are allowed when multiple theories of liability
are alleged:

35 See

Record at 854; AE XCIII at 7 (“‘Sexual act’ means the
penetration, however slight, of the vulva or anus or mouth by the
penis. ‘Sexual act’ also means the penetration of another by any
part of the body or by any object with an intent to abuse,
humiliate, harass, or degrade any person or to arouse or gratify
the sexual desire of any person.”).

79a
[A] court-martial panel, like a civilian jury,
returns a general verdict and does not specify how
the law applies to the facts, nor does the panel
otherwise explain the reasons for its decision to
convict or acquit. In returning such a general
verdict, a court-martial panel resolves the issue
presented to it: did the accused commit the offense
charged . . . beyond a reasonable doubt? A
factfinder may enter a general verdict of guilt even
when the charge could have been committed by
two or more means, as long as the evidence
supports at least one of the means beyond a
reasonable doubt.
United States v. Brown, 65 M.J. 356, 359 (C.A.A.F.
2007) (citations and internal quotation marks
omitted); see also Schad v. Arizona, 501 U.S. 624, 631,
111 S. Ct. 2491, 115 L. Ed. 2d 555 (1991) (plurality
opinion) (“We have never suggested that in returning
general verdicts in such cases the jurors should be
required to agree upon a single means of commission,
any more than the indictments were required to
specify one alone.”). Consequently, we conclude that
even if Specifications 1 and 3 of Charge II failed to
allege an essential element, the record demonstrates
that the appellant had notice of the Specifications and
cannot, therefore, demonstrate material [*44]
prejudice to a substantial right.
2. Ineffective assistance of counsel
The appellant alleges that his trial defense team
provided ineffective assistance because they failed to
either file a motion for a finding of not guilty or to
object in any way to the alleged failure of

80a
Specifications 1 and 3 of Charge II to state an offense.
We analyze ineffective assistance of counsel claims
under the test outlined by the Supreme Court in
Strickland v. Washington, 466 U.S. 668, 104 S. Ct.
2052, 80 L. Ed. 2d 674 (1984). In order to prove
ineffective assistance of counsel, the appellant must
show that his trial defense team’s performance was
deficient and that the deficiency deprived him of a fair
trial. United States v. Garcia, 59 M.J. 447, 450
(C.A.A.F. 2004). “When reviewing ineffectiveness
claims, ‘a court need not determine whether counsel’s
performance was deficient before examining the
prejudice suffered by the defendant.’ Rather, ‘[i]f it is
easier to dispose of an ineffectiveness claim on the
ground of lack of sufficient prejudice, . . . that course
should be followed.’” United States v. Datavs, 71 M.J.
420, 424-25 (C.A.A.F. 2012) (alteration in original)
(internal citation omitted) (quoting Strickland, 466
U.S. at 697).
With respect to Strickland’s prejudice prong, when an
allegation of ineffective assistance of counsel is based
on a failure to make a motion, the appellant “must
show that there is a reasonable [*45] probability that
such a motion would have been meritorious.” United
States v. McConnell, 55 M.J. 479, 482 (C.A.A.F. 2001)
(citation and internal quotation marks omitted); see
also United States v. Flack, 47 M.J. 415, 417 (C.A.A.F.
1998) (citing Kimmelman v. Morrison, 477 U.S. 365,
375, 106 S. Ct. 2574, 91 L. Ed. 2d 305 (1986)). Because
we have concluded that Specifications 1 and 3 of
Charge II did allege all essential elements of the
offense of rape of a child, any motion for relief filed by
the appellant’s trial defense team would not have been

81a
meritorious. Therefore, the appellant suffered no
prejudice.
E. Legal and Factual Sufficiency
We review questions of legal and factual sufficiency de
novo. Art 66(c), UCMJ; United States v. Washington,
57 M.J. 394, 399 (C.A.A.F. 2002). The test for factual
sufficiency is whether “after weighing the evidence in
the record of trial and making allowances for not
having personally observed the witnesses, [this court
is] convinced of appellant’s guilt beyond a reasonable
doubt.” United States v. Rosario, 76 M.J. 114, 117
(C.A.A.F. 2017) (citation, internal quotation marks,
and emphasis omitted). In conducting this unique
appellate function, we take “a fresh, impartial look at
the evidence,” applying “neither a presumption of
innocence nor a presumption of guilt” to “make [our]
own independent determination as to whether the
evidence constitutes proof of each required element
beyond a reasonable doubt.” Washington, 57 M.J. at
399. Proof beyond a reasonable doubt does not mean,
however, [*46] that the evidence must be free from
conflict. United States v. Goode, 54 M.J. 836, 841 (NM. Ct. Crim. App. 2001). “The test for legal sufficiency
is whether, after viewing the evidence in the light
most favorable to the prosecution, any rational trier of
fact could have found the essential elements of the
crime beyond a reasonable doubt.” United States v.
Robinson, 77 M.J. 294, 297-98, (C.A.A.F. 2018)
(quoting Rosario, 76 M.J. at 117).
1. Sexual acts

82a
The appellant challenges the factual sufficiency of his
convictions for child rape, conspiracy to commit child
rape, and making a false official statement—denying
that he raped GB. The appellant argues that the
government failed to prove beyond a reasonable doubt
that he committed a sexual act upon GB for two
reasons: (1) the Skype messages with “Hailey
Burtnett” simply reflect fantasies; and (2) GB’s
positive Diatherix test result was unreliable and could
not corroborate that any sexual acts occurred. We
disagree.
The appellant was convicted of raping GB on 29 March
2016 and again on 15 May 2016. The graphic Skype
conversations between the appellant and “Hailey
Burtnett” on those two days reflect a real-time
narration of the appellant’s crimes.36 On 29 March,
“Hailey Burtnett” initiates the Skype session with the
appellant and asks to see GB before asking the
appellant [*47] if he was “in the mood.”37 The
conversation quickly turns to GB, with “Hailey
Burtnett” directing the appellant to perform various
sexual activities on his son, beginning with kissing GB
and then removing his diaper, and progressing to the
appellant performing fellatio on GB, rubbing lotion on
36 See

PE 5; PE 9; and PE 12. PE 5 is the chat log retrieved from
the Microsoft Company detailing the Skype user names, content,
and dates and times of the Skype text messages between “Hailey
Burtnett” and the appellant. Record at 582-83. PE 9 contains the
screen shots of the Skype conversation taken from the appellant’s
cell phone. Record at 570-572. PE 12 is a report containing the
text of the Skype conversations prepared by a computer forensic
expert that extracted the information from the appellant’s phone.
Record at 691-94.

37 PE

5 at 6.

83a
GB’s penis and buttocks, and then penetrating GB’s
anus with his finger and penis.38 The text messages
make clear that “Hailey Burtnett” is responding to
what she is seeing. On several occasions after she
directs the appellant to perform a specific sexual act
or to move his camera into a certain position, “Hailey
Burtnett” responds with positive commentary, telling
the appellant, “good” or “yes.”39 After she directed the
appellant to digitally penetrate GB, “Hailey Burtnett”
responded “Ohh yes” and “wow.”40 The appellant’s
replies also indicate that he is actually performing the
sexual acts directed by “Hailey Burtnett.” During one
portion of the text conversation, the appellant told
“Hailey Burtnett” that he “kinda” ejaculated; she
responded: “I know . . . but not [all the] way.”41
The 15 May Skype conversation is similar. After a
short exchange of pleasantries, the conversation once
again [*48] turns to GB, with “Hailey Burtnett” again
directing the appellant to kiss GB before asking the
appellant to put his penis in GB’s mouth. She
specifically directs the appellant to “tell him to open
his mouth up wider . . . say open it big.”42 “Hailey
Burtnett” once again directs the appellant to rub

38 See
39 Id.

PE 5 at 6-9.
at 8.

40 Id.
41 Id.
42 Id.

at 23.

84a
lotion on GB’s penis and to perform fellatio on GB. She
comments that “he likes it so much.”43
Further, the appellant’s statements during his NCIS
interrogation are incredible and demonstrate a
consciousness of guilt. Indeed, false statements or
explanations “by an accused in explaining an alleged
offense may themselves tend to show guilt.” United
States v. Colcol, 16 M.J. 479, 484 (C.M.A. 1983) (citing
Wilson v. United States, 162 U.S. 613, 16 S. Ct. 895,
40 L. Ed. 1090 (1896)). First, the appellant told NCIS
agents that “Hailey Burtnett” was someone he knew
from his hometown. Yet NCIS agents checked with
local law enforcement and the local schools and could
find no record of anyone with her name. A forensic
analysis of their Skype chat logs revealed, in fact, that
“Hailey Burtnett’s” IP address resolved to several
locations in Europe—not Clearwater, FL, as the
appellant claimed. Next, the appellant told Special
Agent CM that he did not touch his son
inappropriately and that the Skype messages simply
reflect fantasy: [*49] that he dressed up his son’s
green teddy bear in a diaper and “d[id] weird stuff to
it.”44 But this assertion is belied by the record. Not
only do the Skype messages of 29 March and 15 May
fail to ever reference a teddy bear or the teddy bear’s
name (‘Scout”), they also describe in graphic detail the
human anatomy of a prepubescent boy. The Skype
messages always refer to the appellant’s son by name
and, when “Hailey Burtnett” asked the appellant if
GB was home, the appellant sent her a photograph of
43 Id.
44 AE

LXXV at 4.

85a
his son—not a green teddy bear.45 Moreover,
additional Skype messages between “Hailey Burtnett”
and the appellant make clear that the two are talking
about GB. Throughout their conversations, “Hailey
Burtnett” asks the appellant if GB is home, when he
will return, or when she will get to see him next. The
appellant’s responses, too, reveal that they are talking
about GB and not a teddy bear. The appellant tells
“Hailey Burtnett” that GB is sleeping, or that he just
ate, or that he is with his mother. In short, there is no
indication whatsoever that the appellant and “Hailey
Burtnett” are talking about a teddy bear. Finally,
GB’s positive test for gonorrhea—a disease that can
only be transmitted [*50] through sexual contact—
corroborated the Skype messages.
Thus, after weighing the evidence and making
allowances for not having personally observed the
witnesses, we are convinced beyond reasonable doubt
that the appellant committed a sexual act upon GB on
29 March 2016 and again on 15 May 2016 and that his
convictions for rape of a child, conspiracy to commit
rape of a child, and making a false official statement
are, therefore, factually sufficient.
2. Production and distribution of child pornography
Finally, the appellant avers that his convictions for
producing and distributing child pornography, as well
as his conviction for conspiracy to produce and
distribute child pornography, are not legally and
factually sufficient. The appellant argues that the
45 Record

at 721, 739; PE 9 at 107.

86a
government presented no evidence that any files
containing child pornography were created,
manufactured or distributed using the Skype
application. In support of his argument, the appellant
cites United States v. Malone, No. 201000387, 2011
CCA LEXIS 115, at *13-16 (N-M. Ct. Crim. App. 28
June 2011) (unpub. op.), rev. denied, 70 M.J. 367
(C.A.A.F. 2011), where we held that “streaming video”
was not legally sufficient to prove distribution of child
pornography.
The appellant’s reliance on Malone is misplaced. In
Malone, we held that [*51] a servicemember’s
conviction for distributing child pornography under 18
U.S.C. § 2252A(a)(2)(A) was not legally sufficient
because there was no evidence that Malone delivered
child pornography “to the possession of another.” Id.
at *14. There, a fellow Sailor had accessed files on the
appellant’s computer and viewed them in “streaming
video format.” Because the Sailor did not possess the
videos in any manner, we held that the evidence was
legally insufficient to establish distribution.
Unlike Malone, the appellant was charged with clause
2, Article 134, UCMJ, offenses for producing and
distributing child pornography where the “said
conduct was of a nature to bring discredit upon the
armed forces.”46 Under Article 36, UCMJ, the
President has the authority to issue “[p]retrial, trial,
and post-trial procedures, including modes of proof,
for cases arising under [the UCMJ] triable in courts46 Charge

Sheet; see also MCM, Part IV, P 60.c.(1) (“Clause 2
offenses involve conduct of a nature to bring to bring discredit
upon the armed forces.”).

87a
martial . . . .” The MCM is the document through
which the President exercises his Article 36 rulemaking authority. The President specifically
prescribed the elements, modes of proof and
corresponding definitions for the appellant’s
offenses.47
Thus, we first look to the elements of the offenses
charged and the corresponding [*52] definitions
prescribed by the President. The elements of
producing child pornography as alleged in
Specifications 1 and 5 of Charge III are:
(1) That the appellant knowingly and wrongfully
produced child pornography, to wit: a video of a
minor engaging in sexually explicit conduct;
(2) That the production was with the intent to
distribute; and
(3) That, under the circumstances, the conduct of
the appellant was of a nature to bring discredit
upon the armed forces.48
The elements of distributing child pornography as
alleged in Specifications 2 and 6 of Charge III are:

47 See

MCM, Part IV, P 68b.b and c. This offense was added to the
MCM by Executive Order 13593, signed 13 December 2011, after
Malone was decided by our court.

48 See

10 U.S.C. § 934 (2012); MCM, Part IV, P 68b.b.(4). Because
the appellant was charged with producing with the intent to
distribute, the second element was added by the military judge.
See Record at 852-53; AE XCIII at 4, 6.

88a
(1) That the appellant knowingly and wrongfully
distributed child pornography, to wit: a video of a
minor engaging in sexually explicit conduct; and
(2) That, under the circumstances, the conduct of
the accused was of a nature to bring discredit upon
the armed forces.49
Child pornography is defined as “material that
contains either an obscene visual depiction of a minor
engaging in sexually explicit conduct or a visual
depiction of an actual minor engaging in sexually
explicit conduct.”50 Distributing simply means
“delivering to the actual or constructive possession of
another.” [*53] 51 Possession, in turn, “means
exercising control of something” and “may be direct
physical custody . . . or it may be constructive.”52 The
term producing means “creating or manufacturing”;
that is, “making child pornography that did not
previously exist.”53
Finally, the term “visual depiction” as used in the
definition of “Child Pornography” includes:
any developed or undeveloped photograph,
picture, film or video; any digital or computer
image, picture, film, or video made by any means,
including those transmitted by any means
49 10

U.S.C. § 934 (2012); MCM Part IV, P 68b.b.(3).

50 MCM,

Part IV, P 68b.c.(1) (emphasis added).

51 Id.

at P 68b.c.(3).

52 Id.

at P 68b.c.(5).

53 Id.

at P 68b.c.(6).

89a
including streaming media, even if not stored in a
permanent format; or any digital or electronic data
capable of conversion into a visual image.54
The government presented evidence that the
appellant committed sexual acts on his two-year-old
son while “live streaming” the misconduct to an
individual identifying herself as “Hailey Burtnett” via
the Skype application on his cell phone. The President
specifically defined “child pornography” in terms of a
“visual depiction” and that term is further defined to
include streaming video. By engaging in “sexually
explicit conduct” with his son and transmitting it live
via “streaming video,” the appellant, therefore, [*54]
created child pornography that did not previously
exist.
Likewise, by engaging in a live communication with
“Hailey Burtnett” in which he streamed visual
depictions of himself raping GB, while receiving
instant message instructions and feedback from
Hailey, the appellant delivered child pornography to
the constructive possession of another. “Constructive
possession” is “[c]ontrol or dominion over a property
without actual possession or custody of it.”55 Under
the circumstances presented here, we conclude that
“Hailey Burtnett” had “control or dominion” over the
streaming media because she could end the
transmission at any time by closing the Skype
application on her phone, tablet, or computer (or by

54 Id.

at P 68b.c.(8) (emphasis added).

55 Constructive

ed. 2014).

Possession, BLACK’S LAW DICTIONARY (10th

90a
powering off the device); she could take screenshots of
the video; or she could use another camera or cell
phone to record the video depicted on her screen. In
short, once broadcast via live stream, the person in
receipt of streaming video has myriad ways to exercise
control over the video.
Consequently, after considering the evidence in the
light most favorable to the government, we conclude
that rational members could have found beyond a
reasonable doubt that the appellant [*55] wrongfully
produced and distributed child pornography and that
he conspired to wrongfully produce and distribute
child pornography. Moreover, after taking a fresh,
impartial look at the evidence, we ourselves are
convinced beyond reasonable doubt of the appellant’s
guilt.
III. CONCLUSION
After careful consideration of the record of
proceedings and the briefs and oral argument of
appellate counsel, we have determined that the
approved findings and sentence are correct in law and
fact and that no error materially prejudicial to the
appellant’s substantial rights occurred. Arts. 59(a)
and 66(c), UCMJ, 10 U.S.C. §§ 859(a) and 866(c).
Accordingly, the findings and the sentence are
AFFIRMED.
Judge TANG and Judge LAWRENCE concur.

